<html>
<title> - OVERSIGHT OF THE 1997 NATIONAL DRUG CONTROL STRATEGY</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
           OVERSIGHT OF THE 1997 NATIONAL DRUG CONTROL STRATEGY
=======================================================================



                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
              INTERNATIONAL AFFAIRS, AND CRIMINAL JUSTICE

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION
                               __________

                           FEBRUARY 27, 1997
                               __________

                           Serial No. 105-22
                               __________

Printed for the use of the Committee on Government Reform and Oversight







                    U.S. GOVERNMENT PRINTING OFFICE
42-191                       WASHINGTON : 1997
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT


                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN H. SCHIFF, New Mexico         EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              TIM HOLDEN, Pennsylvania
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
JOHN SHADEGG, Arizona                DENNIS KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           ROD R. BLAGOJEVICH, Illinois
MARSHALL ``MARK'' SANFORD, South     DANNY K. DAVIS, Illinois
    Carolina                         JOHN F. TIERNEY, Massachusetts
JOHN E. SUNUNU, New Hampshire        JIM TURNER, Texas
PETE SESSIONS, Texas                 THOMAS H. ALLEN, Maine
MIKE PAPPAS, New Jersey                          ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
------ ------
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, International Affairs, and Criminal 
                                Justice

                      J. DENNIS HASTERT, Chairman
MARK SOUDER, Indiana                 THOMAS M. BARRETT, Wisconsin
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
STEVEN SCHIFF, New Mexico            ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
JOHN B. SHADEGG, Arizona             ELIJAH E. CUMMINGS, Maryland
STEVE LaTOURETTE, Ohio               JIM TURNER, Texas
BOB BARR, Georgia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Robert Charles, Staff Director
              Sean Littlefield, Professional Staff Member
                          Ianthe Saylor, Clerk
          Mark Stephenson, Minority Professional Staff Member












                            C O N T E N T S


                              ----------                              
                                                                   Page
Hearing held on February 27, 1997................................     1
Statement of:
    McCaffrey, Gen. Barry R., Director, Office of National Drug 
      Control Policy.............................................     3
Letters, statements, etc., submitted for the record by:
    McCaffrey, Gen. Barry R., Director, Office of National Drug 
      Control Policy, prepared statement of......................     7


















          OVERSIGHT OF THE 1997 NATIONAL DRUG CONTROL STRATEGY

                              ----------                              


                      THURSDAY, FEBRUARY 27, 1997

                  House of Representatives,
  Subcommittee on National Security, International 
                     Affairs, and Criminal Justice,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 12:35 p.m., in 
room 2154, Rayburn House Office Building, Hon. J. Dennis 
Hastert (chairman of the subcommittee) presiding.
    Present: Representatives Hastert, Mica, Souder, Shadegg, 
Barr, Barrett, and Cummings.
    Staff present: Robert Charles, staff director; Sean 
Littlefield, professional staff member; Ianthe Saylor, clerk; 
and Mark Stephenson, minority professional staff member.
    Mr. Hastert. This meeting of the House Government Reform 
and Oversight Committee, Subcommittee on National Security, 
International Affairs, and Criminal Justice, will come to 
order.
    Good morning and welcome. This morning's hearing focuses on 
a topic that touches every American, and I do mean every 
American. That topic is drugs. By ``drugs,'' I mean drug abuse 
of every form, including the recent rise in drug abuse by 
America's youth. But I also mean the growing national security 
threat posed by wealthy, powerful, and violent drug cartels on 
our southern border.
    We are privileged to have with us today a true leader in 
this increasingly violent war and a decorated veteran of two 
other wars. I want to welcome Gen. Barry McCaffrey, a friend 
and dedicated servant of the American people and our Nation's 
drug czar.
    Before I turn to the President's latest drug strategy, 
however, I'll review the problems that we face in the drug war. 
We face exploding teenage willingness to try high-potency 
marijuana, often laced with PCP or crack. We face record-level 
teenage overdoses, like the heroin overdose that killed the 
Smashing Pumpkins' keyboard players last year. Heroin that only 
reached 10 percent purity in the late-1970's can now reach 95 
percent purity. Kids do not usually get two chances with heroin 
that pure.
    There are other new drugs threatening our kids and teens, 
including new stimulants, over-the-counter inhalants like Glade 
air freshener, and LSD marketed with pictures of the ``Lion 
King.'' Let me point out the obvious: The drug traffickers are 
not trying to sell the ``Lion King'' to 16-year-olds; they are 
now targeting 8-year-olds with LSD.
    We, of course, must still contend with our primary nemesis, 
cocaine. We are faced with 400 tons of cocaine entering the 
United States every year undetected, and 150 tons of 
methamphetamine, also known as ``speed,'' that crosses our 
Southwest Border.
    We face cocaine possessed by the Cali Cartel in Colombia, 
processed by that, and then the drugs that have caused more 
than 3,600 Colombian police officers to lose their lives in 
recent combat with the drug-trafficking guerrillas there.
    We face the drugs that are linked to homicides in this city 
and every other American city, and increasingly, to murders, 
assaults, and rapes, and burglaries in rural America.
    This hearing, like the other three that we have already 
held this session of Congress, is dedicated to two main 
purposes: First, shining a bright light on the national threat, 
a tragedy which the DEA reports is taking more than 10,000 
American lives annually; second, to help build a national 
consensus that together, we, as a Nation of Republicans and 
Democrats, urban and rural communities, parents and kids, can 
turn back this riptide of drug abuse.
    Before turning to our distinguished witness today, let me 
say that Congress will take action to help solve this problem. 
We will encourage parents to talk to their kids about the 
dangers of drugs. We will work together in communities across 
America. In fact, I will soon be introducing legislation with 
Congressmen Portman, Rangel, and Levin to spur the creation of 
community anti-drug coalitions to bring communities together to 
stop this scourge.
    As we turn to examining the National Drug Strategy, I will 
ask Gen. McCaffrey to begin his testimony. I will do so with 
great respect for the General, his work, both as an officer in 
the Army and as a Director of the ONDCP; and my respect and 
friendship certainly will lead to cooperation. But we will 
continue to keep a critical eye to evaluate that drug strategy.
    It is my duty and that of all of my colleagues to ensure 
that we pursue the best strategy possible to fit the American 
needs and to fight the scourge of drugs in our country.
    I am pleased to turn to my colleague, the subcommittee's 
ranking minority member, Tom Barrett of Wisconsin, for any 
opening remarks he may have.
    Mr. Barrett. Thank you, Mr. Chairman, and welcome, Gen. 
McCaffrey. You are a good man, and you have been a very 
effective Director the past year, and we are very happy to have 
you here today.
    However, as you are far more aware than anybody else in 
this room, you face one of the most difficult and challenging 
jobs in this entire country. Before the hearing, a couple of us 
were talking up here, and I said, this guy has one tough job; 
and I applaud you for the enthusiasm and energy you put into 
your job.
    The problem, of course, is that despite some encouraging 
signs, we are unfortunately seeing that the problem of drug use 
is getting worse in America, especially among America's youth. 
According to the 1997 National Drug Control Strategy released 
this week, the use of illegal drugs among eighth-graders is up 
150 percent over the past 5 years, with more than half of all 
high school students using illegal drugs by the time they 
graduate.
    The use of cocaine by eighth-graders has doubled to 4.5 
percent in 1996, and almost one in four high school seniors 
used marijuana on a past-month basis in 1996, and it is being 
used by younger and younger children.
    I was at the White House earlier this week, when you talked 
about the fact that a child who stays drug and alcohol free 
between the ages of 13 and 21, will most likely stay drug free 
his or her entire life, and I hope that you talk a little bit 
about that today, because I think that it puts the spotlight 
where it has to be, and that is on our Nation's youth and how 
important this fight is for all of us today.
    Clearly, there must be more done if we are to prevent a 
future drug epidemic. This year's strategy and budget 
submission by the President provides some hope. It requests $16 
billion. That is $818 million more than fiscal year 1997, a 5.4 
percent increase, and the innovation of developing a 10-year 
strategy also strikes me as a good way to get a handle on long-
term solutions to this problem.
    Also of obvious concern, I think, to all of us here today 
is the recent revelations of corruption in the Mexican 
Government, and I am sure that that is going to come up a 
little bit today.
    I look forward to hearing from you on these and other 
important issues. Thank you.
    Mr. Hastert. Without objection, we will ask that all 
Members put their opening statements in the record, and so 
ordered. I would like to welcome Gen. McCaffrey, the Director 
of the Office of National Drug Control Strategy; and, General, 
as always, we are pleased to have you here. Would you stand and 
raise your right hand. The committee's rules require me to 
swear you in.
    [Witness sworn.]
    Mr. Hastert. Let the record show that the witness responded 
in the affirmative.
    Thank you, General, and please proceed with your opening 
statement.

   STATEMENT OF GEN. BARRY R. McCAFFREY, DIRECTOR, OFFICE OF 
                  NATIONAL DRUG CONTROL POLICY

    Gen. McCaffrey. Mr. Chairman, thanks very much for the 
opportunity to appear in front of your committee to lay out 
some of our own thinking and, perhaps more importantly, respond 
to your own interests and questions. Let me also thank 
Congressman Tom Barrett for joining this leadership effort, and 
I look forward to working with you and the minority members of 
the committee.
    I would be remiss if I did not very specifically 
acknowledge that many of you on this committee and certainly 
others in the House have been instrumental in my education and 
support in the way that we have developed this process over the 
last year. Rob Portman and Charlie Rangel, in particular, I 
need to publicly comment on as they have been very instrumental 
in a leadership role. I would also, if I may, acknowledge 
Elijah Cummings, who has taken me to Baltimore and tried to 
show me what drug abuse and its consequences really look like 
in an urban environment, and I thank you, sir; Steny Hoyer; Ben 
Gilman, who has done tremendous work in helping orient us on 
the problems of the interdiction zone and the source countries; 
Congressman Livingston, who pulled together the leadership, 
along with you, Mr. Hastert, to give us the largest drug budget 
in history last year; Frank Wolf; Jim Kolbe; and David Obey.
    I would also, if I may, publicly comment that Maxine Waters 
and the Congressional Black Caucus have been very involved in 
an oversight role on how this strategy has been developed. I 
have also consulted with Mr. Waxman.
    Finally, the strategy that I have put in front of you today 
is clearly the work of a team effort. Although we have, by law, 
the responsibility of writing the annual drug strategy and 
pulling together and certifying the budget, there is no 
question that the big three people in my life are the Attorney 
General, Janet Reno; Secretary of Health and Human Services, 
Donna Shalala; and Education Secretary Dick Riley.
    A bunch of the other 14 significant officers of Government, 
though, took key roles in this: Bob Rubin; the former Secretary 
of Defense, Dr. Perry; and others. We have certainly had the 
continuous involvement of the law enforcement national 
leadership, which we are really blessed to work with: Tom 
Constantine, Louis Freeh; and over in Treasury, Jim Johnson.
    Let me, if I may, Mr. Chairman, point out what I have 
offered for the record, a statement that we have done 
considerable work on, and I apologize that we had this down 
here later than your staff would have liked. But that is on the 
floor for you to consider.
    I have also included copies, if I may for the record, of 
the drug situation that I will portray on these briefing charts 
over to my left. Finally, I think Dr. John Carnevale in my 
office has put together a very useful piece of paper, the 
Fiscal Year 1998 Drug Control Budget. Now, there is a thicker 
book of this, but this tries to lay it out and show you how we 
are recommending for other congressional committees to consider 
the funding to make this strategy happen.
    The strategy itself; there are two volumes, Mr. Chairman, 
that I have laid out. There is a third one that is classified. 
The first volume really is the one we ought to focus on, in my 
judgment. It is smaller; it is cleaner. We think it is a first 
rate piece of work. It took 4,000-some-odd sources of input to 
write this over the last 9 months. We think it is a guide to 
action and will be a useful way for us to organize our thinking 
conceptually over the next 10 years.
    Also, by law, we submit the budget summary and other 
related documents required in the 1988 act, and I think that 
will be a source of good background information for many of 
you.
    Finally, for the first time we have been able to complete 
and put into play a classified annex to the National Drug 
Strategy, and attempt to do the law enforcement-sensitive 
information and guidance to DOD or other overseas interdiction 
actors, and that is certainly available for your consideration.
    Before giving you a very brief overview, I wonder if you 
might allow me to introduce Dr. Hoover Adger, who is sitting 
behind me; and Dr. Adger--sir, if you would stand up--has now 
joined us as my Deputy. That slot, of course, was authorized by 
the Congress last year and salary funded. I will submit it for 
congressional consideration as a Senate-approved position.
    Dr. Adger comes with enormously distinguished credentials 
as a Johns Hopkins pediatrics professor of medicine with a 
lifelong specialization in adolescent addiction. He is very 
widely published, and I think he will be a tremendous source of 
strength and knowledge to all of us, and I wanted to publicly 
tell this committee that he is joining the team.
    Very quickly, Pancho, if you would pull some slides here, 
there are five brief points I would make, and then I think I 
will just respond to your own interests. The first is to say 
that, look, America, 265 million of us, have walked away from 
drugs over the last 15 to 20 years. We were up at 25 million 
regular users. We are down to 12 million. Essentially, adult 
use of drugs is stable or declining; and, indeed, cocaine use 
is plummeting. It is down, we say, some 72 percent.
    This is true, whether you look at the absolute number of 
casual users, at those who are new initiates, or whether you go 
to the 12th-grade population.
    Now, it is hard for a police officer, a narcotics officer, 
an emergency room doctor to believe this, because we are also 
saying that the tonnage consumed in America has remained 
relatively stable. So emergency room admissions and crime and 
sickness and the consequences of this dreadful drug are 
increasing.
    Here is a problem: eighth-graders. I capture this because 
they are at the front end of the most sensitive part of their 
nervous system development, their emotional development, their 
social progress. Drug use among eighth-graders, and it really 
started to turn around in 1989, we think, on the value systems, 
has gone up some 150 percent. When you look at kids in general, 
the peak year was probably around 1990, when disapproval 
started to go down, disapproval rates by young people.
    In 1991, we saw the drop in the risk perception by youth, 
and then in 1992, actual drug use by young Americans started to 
go up. It has gone up every year since then. It is now only 
half as bad as it was in 1979. It will get worse if we do not 
get better organized.
    Now, finally, let me announce that the drug situation is 
not static. Cocaine use may be plummeting, but new drugs are 
appearing, new, higher purity heroin; but a new drug, 
methamphetamine, I would put on the table as a potentially 
worse threat to America than the crack cocaine epidemic of the 
1980's. It is not just a West Coast threat now; it is out in 
rural Iowa and Missouri and Utah and Idaho and other places.
    Finally, a quick note on the cost of all this. Emergency 
room admissions of drugs, as I have said, are going up, and so 
the medical and social consequences are getting worse.
    Finally, many would argue, we have been willing, and I 
think correctly so, to stand firm on violent crime in the sales 
of drugs, but it has resulted in an explosion of incarcerations 
in this country. We are up to 1.6 million Americans behind 
bars, the highest per-capita incarceration rate, many would 
argue, on the face of the globe.
    We can project potentially that the figure will get 25 
percent worse in the coming years. When I point this out, not 
to decry our appropriate confrontation with violent crime, but 
to underscore that if we do not back concepts like the drug 
court system, ``Break the Cycle,'' and effective treatment 
methodologies, that we are consigned to enormous recidivism 
rates and increasing incarceration, which cost us as taxpayers 
a fortune. That is a $17 billion-a-year bill to pay for that 
system. I might add, it is so massive that the prison 
construction budget in the United States now exceeds that of 
the U.S. Armed Forces.
    Finally, a comment: Interdiction is important. Cocaine; we 
strip off--``we,'' meaning Peruvian cops, the Colombian Air 
Force, the Mexican Army, law enforcement in the United States--
probably a third of the cocaine produced each year. We also get 
a good bit of the heroin. Worldwide, we say, some 32 metric 
tons gets seized.
    The U.S. law enforcement agencies get 1.3 metric tons. Now, 
having said that, what we have got to face up to is though the 
devastation caused by drug abuse is enormous--we say $70 
billion a year and 16,000 dead--in fact, there is a reasonably 
small number of us abusing these drugs. That 3.6 million 
Americans' demand is a fraction of the world's total needs. So 
heroin, we say, perhaps 360 metric tons, on up to 450 metric 
tons available; we use 10 metric tons. Cocaine, we estimate 
potentially we are using 240 metric tons, but the world may be 
producing more than 800 metric tons. I might add, it is going 
up dramatically in Colombian production.
    So, to end with a restatement of the National Drug 
Strategy, it focuses on education and prevention for 68 million 
American children. We are aware we have to manage the 
consequences of addiction for 3.6 million chronic addicts in 
America. Finally, we have an equal responsibility to construct 
appropriate Federal agencies to protect our air, land, and sea 
borders and to create international coalitions of cooperative 
democracies.
    Drugs are not an American problem; it is not a Colombian 
problem; a Thai problem; it is a global problem, and I think we 
are going to have to work in a full partnership with these 
international actors.
    Now, having said that, Mr. Chairman, you gave us some $15.6 
billion last year. We are asking for about $16 billion this 
year for bipartisan support. We have written 32 objectives that 
lend themselves to performance measurement for those five 
goals. We are pretty far advanced. We have 126 working groups 
around the Government trying to define how we will come down 
here and demonstrate to you that we are taking this strategy 
and trying to achieve output functions with the money Congress 
gives us.
    On that note, if I may, Mr. Chairman, let me end the formal 
remarks and respond to your own interests.
    [The prepared statement of Gen. McCaffrey follows:]
    [GRAPHIC] [TIFF OMITTED] T2191.001
    
    [GRAPHIC] [TIFF OMITTED] T2191.002
    
    [GRAPHIC] [TIFF OMITTED] T2191.003
    
    [GRAPHIC] [TIFF OMITTED] T2191.004
    
    [GRAPHIC] [TIFF OMITTED] T2191.005
    
    [GRAPHIC] [TIFF OMITTED] T2191.006
    
    [GRAPHIC] [TIFF OMITTED] T2191.007
    
    [GRAPHIC] [TIFF OMITTED] T2191.008
    
    [GRAPHIC] [TIFF OMITTED] T2191.009
    
    [GRAPHIC] [TIFF OMITTED] T2191.010
    
    [GRAPHIC] [TIFF OMITTED] T2191.011
    
    [GRAPHIC] [TIFF OMITTED] T2191.012
    
    [GRAPHIC] [TIFF OMITTED] T2191.013
    
    [GRAPHIC] [TIFF OMITTED] T2191.014
    
    [GRAPHIC] [TIFF OMITTED] T2191.015
    
    [GRAPHIC] [TIFF OMITTED] T2191.016
    
    [GRAPHIC] [TIFF OMITTED] T2191.017
    
    [GRAPHIC] [TIFF OMITTED] T2191.018
    
    [GRAPHIC] [TIFF OMITTED] T2191.019
    
    [GRAPHIC] [TIFF OMITTED] T2191.020
    
    Mr. Hastert. I thank you very much, General. One of the 
things that I just want to, for the record, we are not going to 
recess. We are going to try, for your convenience and everybody 
else to move through this, and there will be other Members 
coming back after they vote. There is a vote going on right 
now.
    Let me kind of break this down. I see four areas. There is 
treatment that you have to address; there is the prevention 
issue that you have to address; there is intervention, trying 
to stop this stuff on our streets and interdiction at our 
borders; and then there is a foreign source, trying to stop 
this stuff by working with foreign countries so it actually is 
not grown, is never created, and never comes to us.
    Our job, along with you, is trying to work to see how we 
expend funds in the wisest and best ways, and somewhere that 
magic formula is out there that we can keep drugs away from our 
children, that we can see a downward trend continuing in drug 
use in this country, and to stop that blip or sometimes very, 
very devastating increases that we see in drug use increases. 
As you know, we can put a lot of charts up, but we know that 
after 1991 or 1992, the increase among our children, especially 
our youngest children, in drug usage started to go up, and we 
need to find the strategies to stop that.
    One of the things that we heard yesterday from 
representatives of 12 leading civic and youth-serving volunteer 
organizations was that it was brought to our attention that 
over 50 million adults and youth belong to one of these 
organizations or participate in these organizations, which are 
doing, I think, tremendous jobs with young people. How do you 
see the White House facilitating a relationship with these 
organizations, which apparently has not existed in the past?
    Gen. McCaffrey. Well, I could not agree with you more. At 
the end of the day, this problem in America is going to get 
solved at the community level, not Washington, DC. So the $16 
billion has to make sense, has to support parents, educators, 
local law enforcement, local coalitions. There is a fellow, Jim 
Copple, who is from CACDA. He and his organization have done 
magnificent work trying to support more than 4,300 community 
coalitions across America. They are getting organized and 
energized again because our children are at risk.
    In addition, these great civic organizations which you have 
mentioned--Elk, Kiwanis, Lions, Optimists, religious 
organizations--also deserve our visibility and support. We are 
going to propose, I might add, on the reauthorization act for 
my small agency. You have got us at 154 people. I am going to 
try and reorganize and make it more obvious that one of our 
three elements in ONDCP is responsible for intergovernmental 
affairs, meaning responding to local State government and 
organizations.
    Now, in addition, I think we have made pretty significant 
progress this year, though, in listening to these people and 
trying to respond to their own activities, whether it is PRIDE, 
D.A.R.E., Boys' and Girls' Clubs, or these civic organizations. 
But, Mr. Chairman, I agree with your point, they are essential 
to our future.
    Mr. Hastert. Let me talk and move to another area, and that 
is certainly the area of interdiction and foreign-source 
countries. You say that we are able to take off the market 
about one-third of the cocaine that is produced, and about two-
thirds of it moves into this country that was meant for this 
country; there is more going to other places.
    Some of it is done in our borders, some of it is done in 
our streets, some of it is done on the high seas, some of it is 
done in the air, and our strategy with Peru, with the 
cooperation of their President, has been somewhat successful. 
We had talked privately and also openly that your strategy is 
going to be to try to increase that cooperation. Basically, 70 
percent of the cocaine that comes into this country has, at 
least its growth origin, becomes a commodity in that country, 
and then moves up through the Andean Chain into Colombia and 
Mexico and into this country.
    What more can we do in Peru? One of the things is really a 
function of economics, that if you can shut off the supply 
lines, there is a glut of cocaine. The price is pushed down. It 
is no longer attractive for the campesinos to growth this 
product--it is also the strategy in Bolivia--and then that 
there is just less of it there, and the prices are so low that 
it does not pay them to grow. Is that one of the courses or one 
of the strategies that you are going to continue to pursue?
    Gen. McCaffrey. It is really a tough challenge. One of the 
things in Peru we are going to have to face up to is there are 
200,000 people living on the land--campesinos, who are not the 
enemy--and they are out there because this is an impoverished 
country trying to develop alternative economic models. They 
would rather grow legal crops, in the viewpoint of the Peruvian 
leadership, than they would live a life of warfare between drug 
cartels and the Peruvian Armed Forces.
    So we believe that the President and his government are 
committed to trying to move coca production out of the Peruvian 
economy. For the first time in 7 years, coca production is 
dramatically down anywhere in the world, and that is in Peru, 
minus 18 percent. We need a big idea. We need to support Peru's 
thinking on this, and in my judgment, over the next 5 to 10 
years, we can probably make a dramatic impact.
    Mr. Souder. Thank you. I guess I got the designated runner 
award to go over and vote and get back.
    I had a number of questions. I hope I can continue to catch 
my breath here. One, in a direct followup with that, in the 
budget that you have proposed, I am glad to see that you 
increase the interdiction proposal over where it had been. Do 
you have any nonrecurring costs in there for radar systems or 
other things like that?
    Gen. McCaffrey. The interdiction piece deserves further 
analysis and work with your committee and others. There are 
continuing debates. One of the problems we had this year, to be 
blunt, was that terrible embassy crisis in Peru, which I think 
cautioned us from moving ahead as aggressively as we might have 
liked to.
    There are significant increases. There is $40 million on 
the table now for Peru. There is some new thinking. Gen. Wes 
Clark, CINC SOUTHCOM, is looking at river and coastal 
interdiction operations. The Peruvians are aggressively trying 
to work land-smuggling routes to respond to the tremendous 
success they and the Colombian Air Force have had in the air 
bridge, but we need to analyze it carefully.
    Specifically, as you look at the 1998 budget, Mr. 
Congressman, that we turned in, there are about $168 million of 
nonrecurring costs, that if you take it off the 1997 budget, 
shows there has been a modest growth in interdiction of some 
$28 million. Last year, you gave us $250 million minus some, 
and we went out with DOD money and forfeiture money and bought 
some equipment that is going to stand us in good stead.
    So interdiction is slightly up $28 million over last year's 
1997 budget.
    Mr. Souder. I know we will continue to have some questions 
about moving into Brazil and the Amazon Basin to try to avoid 
the radar and detection in Peru and Bolivia. I was over in 
Thailand just after you were. We were voting, and so I was not 
able to piggy-back with you the couple of days before that, 
which I was hoping to do. But, clearly, the way the heroin is 
moving out of that area, it is almost impossible, unless we get 
it at its source point, because it is going both directions 
around the world, and we need to look at that issue, and we 
will continue to do that.
    I also wanted to make a brief comment and see what your 
reaction was on it. You had one chart there that showed 1989 
being the peak of disapproval, and then the least usage, it was 
12th-graders, I believe, being in 1991. I wanted to make a 
point with this, that I was working for Senator Coats at that 
point, and specifically was in charge of hiring. We put seven 
staff people on the drug issue alone. Multiple attorneys and 
Ph.D.'s worked with the Drug Czar at that point and passed lots 
of legislation.
    Really, the peak of national attention was in 1989 and 
1990, when we were reacting. We saw the funds go through going 
into 1991, but the political phrase at that point was, the top-
three issues were drugs, drugs, and drugs. There was not a 
second issue in 1989.
    Our campaign consultant for this campaign, at that point, 
was Dick Morris, and we tested. There was nothing in the 
country that tested like that, and we were all making a 
concerted effort. This, more or less, through the 12th-graders 
shows that when there is a concentrated effort, we, indeed, can 
make that kind of impact.
    Now, part of my concern is, is that we do not get--I have 
seen some of your statements, which I agree with. Interdiction 
alone will not work. At the same time, interdiction is 
certainly a starting point and one we can get our hands on 
because the truth is, treatment alone does not work either 
because, as we get into treatment, we will find out, and I am 
on the subcommittee that oversees treatment programs--we do not 
have a really good success program with that, either.
    I am on the oversight committee that has education, both 
the Education Committee and the Reform and Oversight Committee, 
and we have a mixed track record. The program that I think is 
best, which is D.A.R.E., has a mixed track record as the 
studies are going through, and it is very hard to sort this 
thing through.
    I am concerned that a wrong signal is not accidentally 
sent, because I agree that we have to get prevention in the 
treatment, and if we can get the users off, but that 
interdiction is at least an equal partner in this. We cannot be 
perceived as backing off of interdiction because unless we are 
doing all three of those, and that is most clearly the 
congressional role, because even in your budget I think you 
have $3 billion for treatment and only about $1.5 for 
interdiction.
    It is not as though we cannot give the impression to the 
general public that we are focusing on interdiction solely, 
because that is not the truth. The part that has been cut is 
the interdiction, and the other parts have been rising.
    Do you have any reactions to that?
    Gen. McCaffrey. Well, basically I agree with your point. We 
have got to do interdiction. We have got to defend our air, 
land, and sea borders regardless of whether it is going to be a 
war winner. We owe the American people a decent organization of 
our 2,000-mile Southwest Border. Last year, we put about a 25 
percent increase in funds into it. Last year, Congress gave us 
the money for 1,500 additional personnel. This year, the 1998 
budget, we are asking for another 500 Border Patrol agents, 
100-some-odd DEA, 50-some-odd FBI.
    So your point is a good one. We have got to do that. We 
cannot get rolled on defending our own land, air, and sea space 
by criminal activity.
    I think the balance point is one that I will have to listen 
carefully to your views on. I do not think we have done enough 
on source country operations in Peru, as an example. I think 
that is a good place to go and work seriously.
    Finally, I would share your view: Heroin is the hardest 
thing to sort through. Worldwide production is up, double. It 
is in Afghanistan; it is in Burma; it is in Laos; it is in the 
Bekka Valley.
    Mr. Souder. Nigerian trafficking is almost impossible to 
control.
    Gen. McCaffrey. It tends to be most of a problem where 
Government has the least control. So you cannot go to the 
Government of Afghanistan and try to take sensible, 
cooperative, multinational measures.
    Mr. Souder. One brief comment. I want to have one other 
question. The comment is, I first want to congratulate you on 
your aggressive stance on the myth of the medicinal use of 
marijuana and the willingness to stand up, because while we are 
trying to fight a drug war, we have another group of citizens 
that are undermining the very thing that we are trying to do. I 
very much appreciate your standing up because I think some of 
the death statistics are wrong. I am hearing from prosecutors 
and sheriffs that the crimes are 70 percent, that kind of 
thing.
    I know in my district there are numerous automobile wrecks 
that have been reported as non-drug-related, and I hear from 
the kids that there was drug use involved, if not immediate, 
the night before or other things, and they are not being 
reported as drug deaths. The marijuana and cigarettes are the 
gateway drugs, but marijuana, in particular, in the potency, 
you are to be congratulated, because a lot of other people 
wavered in public in this battle.
    My question is, and this is an obvious question today, 
could you describe, have you been part of the decertification 
question on Mexico? Are they taking your input? Do you have any 
comments on that process? Also, one other followup with that is 
we heard the other day in the hearing about whether any 
information was compromised, what kind of discussion did you 
have with the Drug Czar in Mexico who has been part of the 
cartel?
    Gen. McCaffrey. Mr. Chairman, let me thank you for your 
comment on the medical use of marijuana. I might add that what 
we are now doing, ``we,'' meaning Secretary Shalala, Attorney 
General Reno, and the other 12 cabinet officers that were 
involved in that decision approved by the President of the 
United States, is we are supporting the viewpoint of the 
American Medical Association, the California Medical 
Association, the American Cancer Society.
    We have the best medicine on the face of the earth. Part of 
it is due to the fact that we certify safe and effective agents 
through a scientific medical process done by the National 
Institutes of Health and the Food and Drug Administration. As 
long as we do that, the American people will not face 
thalidomide, laetrile, or quack medicines.
    We have said there is no ideology involved in this kind of 
a decision. A Schedule I drug is methamphetamine. Cocaine is 
used for eye surgery. There is no ideology, but the American 
people must get a scientific medical system. So Dr. Harold 
Varmas, our brilliant, Nobel Prize Laureate, NIH Director, will 
focus on that issue. I have asked an independent American 
Academy of Science, Institute of Medicine, to look at what do 
we know and not know in scientific literature.
    We have synthetic THC available right now, and if other of 
the 400-plus compounds in smoked marijuana show promise as 
therapeutic agents, I am sure they can be made available for 
the American medical establishment.
    I thank you, sir, for your comment on that.
    A quick response on the certification issue in Mexico, and 
I would ask for your permission. Of course, as you are aware, 
in accordance with the law, this is not a policy decision; 
these are a matter of public law, and the Secretary of State 
should be allowed to form her own viewpoint, which she will 
have to do really by Saturday. I will be involved in that 
discussion and try and join other senior officers of Government 
providing sound advice.
    Mexico and Colombia are obviously special cases. I mean, in 
Mexico, 100 million people to our south, our third-biggest 
economic training partner; there is no border between the 
United States and Mexico. There are 85 million cars and trucks 
that come back and forth each year; 230 million people cross 
that border. We are culturally, economically, and politically 
integrated, and these brave men and women in public life in 
Mexico are now--and I am just putting this in context, my own 
view, as somebody who has dealt with foreign systems for 32 
years, they are trying to move Mexico into a multiparty 
democracy, a First World economic alliance of NAFTA partners, 
and to create modern institutions of government.
    I do not know about the certification issue, but I am 
persuaded that our children will be better off if we work with 
them in partnership. Partners demand concrete results, not just 
good feelings. So we ought to look for ways in which both 
nations can confront this absolutely incredible situation. 
Mexico has had 25 major assassinations in the last year, 
potentially more than 200 police officers murdered.
    The institutions of democracy in Mexico are under internal 
attack, and I would suggest that it is our own judgment--and I 
would be remiss to not publicly say this--where we identify men 
and women of courage and dedication, if we believe President 
Zedillo and his senior officials of Government are trying to 
move the Mexican people into the future and protect them, we 
ought to stand up in public and say so, and I have been honored 
to do that.
    I also, obviously, have carried a gun and worked with 
foreign governments for a long time. I am not unaware that 
violence and corruption are the twin tools that are being used 
against Colombia, Peru, the Cayman Islands, Panama, and the 
United States. We prosecuted 18,000 people in the Federal 
system last year. But I think they are trying, and I think they 
have suffered a grave disappointment with the alleged 
uncovering of a criminal organization involving their head drug 
cop.
    Now, what did he get out of his couple of months in public 
office? I do not know. Constantine and others are going to have 
to very carefully assess that; certainly, the Mexicans are 
right now.
    The easy one is when he was here in Washington, he did not 
get anything. But having had 2 months' access as the principle 
law enforcement officer involved in the drug system, we should 
view this as a major blow to our partnership on this issue. 
President Zedillo and his officers are going to have to move 
forward on the issue.
    Mr. Souder. I would now like to recognize my friend and the 
distinguished ranking member from Wisconsin, Mr. Barrett.
    Mr. Barrett. Thank you, Mr. Chairman. Again, I thank you, 
General, for coming here today. I, as I indicated before, 
attended the announcement earlier this week concerning the 
goals of the 1997 National Drug Control Strategy and had the 
opportunity to talk to some members of my local media following 
that, and I was somewhat saddened to sense that the general 
reaction was one of cynicism, almost, OK, here we go again; 
another war on drugs.
    So it would be helpful for me, and I have got a few 
questions specifically, as to how you can help the public 
understand the importance of this and why this is not just 
another one-shot media hit and that there is something here.
    My first question is, what is your office doing to improve 
the effectiveness of the Safe and Drug-Free School Program?
    Gen. McCaffrey. Mr. Congressman, it seems to me that the 
principle problem we do face is cynicism or low expectations. 
There are a lot of responsible women and men in city counsels, 
State legislatures, and, indeed, in the U.S. Congress who think 
this is hopeless, who think this is a 1-year spin operation. I 
do not share that viewpoint.
    I mean, in reality, the American people, when they say 
enough is enough, get organized and make a difference, and we 
have seen drug abuse in America come down dramatically in the 
last 15 years. These are artificially high rates of drug abuse. 
We have got to remind ourselves, most Americans do not use 
drugs. A bunch of them have tried them; we say 50 to 72 million 
Americans have used illegal drugs and have walked away from it.
    The problem is our children and those who are chronically 
addicted, and we have simply got to step up to the plate and 
say to the parents, to the educators, to the police chiefs that 
we recognize that if we can get these young people through 
their 21st birthday, not just with threatening them with 
``brain on drugs'' ads, but giving them positive options, by 
mentoring, by Boys' and Girls' Clubs, by sports activities, by 
religious activities, that they can indeed, and will in larger 
numbers than now reject drug abuse.
    We have also got to remind ourselves that 80 percent of our 
kids today have never touched an illegal drug. The problem is, 
one out of five high school seniors has and is currently using 
illegal drugs. The problem with that is not only do they act 
like jerks and they get involved in teen pregnancy, traffic 
accidents, failure to learn, and dropping out of sports; not 
only do they mute their social development; many of them go on 
to become addicted to substances over time.
    So we believe that, you know, Jim Burke from the 
Partnership for a Drug-Free America, can track the national 
attention on this issue through the news media and show that it 
can make a difference. That is why we put on the table what we 
think is a useful tool of $175 million a year, with an equal, 
matching amount out of the advertising industry over 5 years to 
talk to children who watch 15,000 hours of television before 
they finish high school. I think your sense of our challenge 
about cynicism is a correct one.
    Now, Safe and Drug-Free Schools; we put some more money in 
that program. If you look at the goals, Goals 1 through 5, the 
biggest increase in funds, percentage-wise, was Goal 1, a 21 
percent increase. A little bit deceptive, because the single 
biggest percentage of the budget still, hands down, is law 
enforcement and prisons, and that is OK. But the increase, the 
$800-some-odd million dollars, the largest increase went into 
demand reduction among children, and Safe and Drug-Free Schools 
was a big part of that.
    We owe you, as Congress, a performance measure that allows 
me to come down here in future years and explain what we 
achieved out of spending that money. It has been inadequate in 
the past. The GAO went out and did a study, which I am sure was 
appropriate, and found that the money was not properly managed. 
But that program is essential. The Department of Education, we 
think, can manage it, and it can give us some really important 
outcomes.
    Mr. Barrett. Thank you. On another question related to the 
program, several weeks ago, I had the good fortune of being up 
between 3 and 4 a.m., because we have a 3-week-old baby, so I 
got to see some of the shows and some of the public service 
announcements that were occurring at that time. Part of the 
initiative that you just referred to as a $175 million 
initiative for public service announcements which would be 
matched by the private sector, I am curious as to whether the 
networks have bellied up to the bar and are going to be part of 
this or whether this is just $175 million that we are turning 
over to the networks.
    More importantly--and, again, this goes back to the 
cynicism I faced in my district was, oh, great; you are going 
to be running TV commercials. How is that going to work?
    Gen. McCaffrey. Yes.
    Mr. Barrett. If you would address those issues?
    Gen. McCaffrey. Well, we know how important advertising is, 
and we watch $6 billion in the cigarette industry and a couple 
of billion dollars in the beer industry, and it does have an 
impact on people; there is no question about it. We are the 
best in the world at it, and I personally watched us take the 
volunteer Army and go to this creative industry and help move 
us out of a draft environment and get the best young men and 
women in America to step forward and volunteer to serve in the 
armed forces.
    So we do have confidence in it, and there is some history 
there. Again, Partnership for a Drug-Free America and the 
American Advertising Council knows a lot about this. Now, we 
have gone out and started consultations with the entertainment 
world, the news media, and advertising. We think right now they 
provide a little over $2 million a year pro bono advertising, 
but it is coming down dramatically. It dropped 30 percent in 
the last few years, and the economics of the industry are 
causing some problems.
    So my guess is they will support us; they will get 
involved. They are responsible people. ABC has done a 
tremendous program that is going to saturate the air waves in 
the coming months. This starts next week. I went out to 
Hollywood and had a very useful 2 days and challenged the TV 
industry and the movie industry to join us in this effort, and 
I think there was a very positive response, and I met with the 
NBC leadership.
    So I think there is some confidence in what we are going to 
try and do.
    Mr. Barrett. OK. Thank you. Finally, one question that my 
colleague, Congressman Tim Holden, asked me to pose to you. You 
visited the Southwest Border on several occasions, and on 
Tuesday of this week, the chief of the Border Patrol testified 
before this subcommittee on the violence toward law enforcement 
officials and the increasing amount of illegal drugs crossing 
the United States-Mexican border. What technical assistance 
have you provided to the U.S. Border Patrol for its protection 
of their agents and better surveillance of illegal activities 
along the Southwest Border?
    Gen. McCaffrey. The first thing I did was I sent a 
reconnaissance representative along the Southwest Border last 
March, and then I went back, and I went with Doug Kruhm, the 
Border Patrol Chief, and Tom Constantine, the DEA Chief, and I 
have been to many of the places along that border and been 
tutored by Customs, INS. I have been to Joint Task Force 6. I 
have gone and worked the intelligence problem. I have crossed 
the border and listened to the Mexican side of it. I have a 
decent grounding on what the challenge is.
    We have an inadequate U.S. Federal law enforcement 
establishment, and we have an inadequate intelligence system 
focused south on the drug threat. We owe the President, by next 
summer, a better concept. We have got an initial one now. We 
have clearly got good men and women along that border.
    The Border Patrol is one of the most professional law 
enforcement operations on the face of the earth. That is what 
Mexican ranchers and U.S. ranchers trust, and they are doing a 
tremendous job, but they are inadequately sized. They have got 
a five-phase strategy they have thought out, but I would argue 
that before we are done with this, rather than 5,700 people on 
the Border Patrol, we are more likely to have 20,000, and you 
cannot build cops like you can surge the armed forces. They 
have to be older. They have to get grounded. It takes 5 years 
to build a good cop, and we need a Customs Agency that has high 
technology instead of 4,000 National Guardsmen unloading trucks 
of lettuce.
    Now, last year, you gave us 11 mobile, x-ray machines. What 
a tremendous step forward. We get those out there, and we are 
going to start deterring drug smuggling through our 38 ports of 
entry.
    Now, there is a lot we can do, and we need to do more. We 
have got some people at threat living on our border, and that 
is unacceptable.
    Mr. Barrett. Thank you very much.
    Mr. Hastert. Thank you. Before I pass the questions down 
the row here, let me just ask you, you talked about the 
National Guard, but the National Guard has been pretty 
supportive, haven't they? They have been in other areas. I know 
we had testimony out in California last year about what the 
National Guard was doing.
    Gen. McCaffrey. Thank God for the National Guard. I mean, 
on a given day, there are 3 or 4,000 of them in the State 
supporting law enforcement. Of course, they are non-Title X 
forces, so their flexibility is considerable. Right now, they 
are manning Air Force Guard ground-based radar stations in 
Latin America. They are flying F-16's out of Panama. They are 
running intel operations. They provide intelligence translators 
for the FBI and DEA.
    If you go into the Los Angeles Police Department 
Deconfliction Center, there is a National Guard sergeant in 
there. They are in my office, so they are doing a tremendous 
piece of work.
    Mr. Hastert. I just did not want to leave the impression 
that all they did was unload lettuce, but they are doing other 
things.
    Gen. McCaffrey. No. That is right.
    Mr. Hastert. The gentleman from Florida, Mr. Mica.
    Mr. Mica. General, you are in charge of our war on drugs or 
our efforts to stem the increase in use of illegal drugs for 
the country, and I think you were in January. Is that correct?
    Gen. McCaffrey. Indeed.
    Mr. Mica. In January, you made statements lavishing praise 
on the Drug Czar of Mexico, Mr. Gutierrez, and I think you 
called him, ``a guy of absolutely unquestioned integrity'' and 
also gave praise for him during his appointment, I think, last 
December.
    I am completely baffled at the lack of intelligence, the 
lack of information that you have as drug czar, or had as drug 
czar, in making those statements.
    Can you tell me what the problem is?
    Gen. McCaffrey. Well, I think the problem is the Mexicans 
selected a general officer from field command, put him in a 
very responsible position, and then are apparently learning--we 
are going to watch this very carefully in the weeks to come--
that he was actually part of a protection operation for one of 
the drug criminal organizations.
    So he had developed a tremendous reputation for 
aggressiveness in the field, had actually made three of the 
biggest busts in Mexico, but possibly we are going to learn in 
the coming weeks--we will have to watch, of course, as evidence 
is laid out--possibly we will learn that he was really a tool 
of another criminal organization.
    So Mexico made a terrible choice. They are disappointed, 
and our intelligence also did not pick up on that.
    Mr. Mica. But you were not informed as our drug czar. You 
had no idea of the history or the drug connections of this 
individual. Is that correct?
    Gen. McCaffrey. No. I would go beyond that. I had an 
incorrect opinion that he was a guy----
    Mr. Mica. That just really disturbs me even more because of 
the importance of intelligence in the drug war.
    I met this morning briefly with the chairman of the 
Intelligence Committee of the House of Representatives, Mr. 
Goss, and I asked him this morning, and I am going to followup 
today with a written request, for a complete investigation of 
the matter, because we could have, in fact, jeopardized many 
lives. We could have jeopardized what I consider national 
security in this situation.
    Now, you testified a few minutes ago that you did not 
transmit any confidential information to Gen. Gutierrez when 
you met with him; and that is correct?
    Gen. McCaffrey. Right.
    Mr. Mica. But it is my understanding that you also briefed 
the Attorney General, Lazano, in the past. Is that correct?
    Gen. McCaffrey. That is correct.
    Mr. Mica. What concerns me is I understand that all the 
files that Gen. Lazano----
    Gen. McCaffrey. Attorney General Madrazo--it was actually a 
Madrazo visit, with Gutierrez Rebollo with him.
    Mr. Mica. But on previous occasions, it is my information 
that the Mexican Attorney General, Lazano, had confidential 
information and that, in fact, those files had been turned over 
to Gutierrez, and that concerns me. I am concerned that, first, 
we do not have the intelligence, the information-gathering 
capability to inform our drug czar to not put you out on a limb 
to make statements like this.
    So, I am calling for that investigation by the House 
Intelligence Committee, even though your agency is 
overlooking--I'm sorry--is looking over that--it may be 
overlooked, but it is a very serious situation. I want to point 
out a couple of things.
    First of all, I do not know if you realize it, but in your 
report on page 53, this chart, I think, is incorrect. The 
chart, I think it was put in in an averse manner. If you get 
today's report from GAO, which has the same sources, published 
this report correctly, and I wish that would be changed in your 
report.
    Furthermore, we also heard testimony here this week from 
Ambassador Gelbard, who is in charge of State; Tom Constantine, 
who is in charge of DEA; about their roles in the drug war. 
They said that they are having trouble with the administration 
taking action and getting equipment to Colombia and to Peru. In 
fact, we have list of some of the information that has been on 
a list of equipment to be provided to those countries that has 
not been provided.
    Now, what assurance can you give me that you are 
coordinating efforts to get that equipment on the front line 
for things that had been appropriated or approved in the past--
and they referred to some of this as ``off the shelf,'' and we 
have a two-page list of it--let alone, our subcommittee and 
Congress appropriating more funds to put up more equipment that 
is not getting into the war of drugs?
    Gen. McCaffrey. I would be glad to look into it. The 
Colombia situation has been very complicated over the last 
year. When they were decertified, there was essentially a 
commitment that we would continue counterdrug cooperation in 
accordance with the law.
    One of the, I thought, unfortunate drawbacks was that it 
did affect our 614 drawdown authority with Colombia and, 
indeed, FMF sales of equipment to Colombian police and 
military, and that has been a problem.
    Mr. Mica. Now, 614 authority has a clear authority for 
waivers, and when that information was brought up by Mr. 
Gelbard, Ambassador Gelbard, I produced a document that showed 
614 waivers that were given to Somalia, that were given to 
Haiti, that were given to others in the national interest. If 
it is not in the national interest to get this equipment into 
the hands with a waiver from the President of the United 
States, I do not know what is in the national interest.
    Gen. McCaffrey. Basically, I share your viewpoint, Mr. 
Mica, and I think what we need to do is produce such a 614 
drawdown authority and support these various courageous police 
and military officials in Colombia. I think you are right.
    Mr. Mica. Is that going to be forthcoming? Is that a 
recommendation to the President?
    Gen. McCaffrey. Without question.
    Mr. Mica. Thank you.
    Mr. Hastert. The gentleman from Arizona, Mr. Shadegg. The 
gentleman from Maryland.
    Mr. Cummings. Thank you, Mr. Chairman. Gen. McCaffrey, it 
certainly is good to see you again. I thank you for your 
efforts. I also want to thank you for coming to Baltimore to 
see firsthand a city where out of a population of 691,000, we 
have documented over 50,000 addicts, which means 1 out of every 
14.
    I guess what I am trying to figure out today, you know, I 
listened to the news conference the other day with the 
President, and I certainly applaud what the President is doing, 
and I think that everybody who sits up here wants to do 
everything in our power to help you. I guess the question 
always becomes, what is most cost-efficient and effective? The 
President said he wants to put out a certain amount of money 
for advertising and things of that nature.
    You may have said this while I was out of the room, and if 
you did, I am sorry; and I am sure that is your aim, too, cost-
efficient and effective. Can you tell us the basis of what went 
into this strategy right here, say, for example, advertisement? 
You have a lot of people who are sort of skeptical, saying, 
``Well, wait a minute. How do we know that that is going to 
work?''
    I know that in some instances you cannot say something is 
definitely going to work, but I think what the American people 
want and I think what all of us need is to have some kind of 
feeling that whatever we are doing, whatever money we are 
putting forth, whatever efforts we are putting forth are going 
to likely have results that are favorable.
    As I listen to my colleagues on both sides of the aisle, 
there just seems to be some skepticism, a lot of skepticism 
about what we are doing. I know you have not been in office but 
so long, but apparently a lot of research must have gone into 
the President's proposal the other day. I am trying to figure 
out exactly how you all came to the conclusions, how you came 
up with your priorities, and what effect you think, if all of 
that is carried out, will have.
    Gen. McCaffrey. First of all, I think skepticism is 
appropriate, and that is a healthy way to go into this. I had 
to put up a strategy, define objectives, do performance 
measures, and then be held accountable over time to achieve 
results, and to throttle back on programs that do not work and 
increase those that do. So, I think that is entirely correct.
    Having said that, I would also like to differentiate 
between a strategy and its funding. That is a strategy. That is 
based on 4,000-plus people and their input, and I read every 
one of them, and I have got a brilliant group of people that 
borrowed from models around America, people who know what they 
are talking about. So, I think this is pretty sensible stuff.
    Now, each year, it seems to me, we have got to come down 
and debate the resources that go into that strategy, and then 
we ought to adjust them. This is not a 10-year, cookie-cutter 
solution, and I think we need a 5-year budget. I do not think 
you can have a debate over the coming budget year and see the 
tradeoff between a little over $3 a head on drug prevention 
money per child in America and $17 billion of law enforcement, 
prison construction and operations. So, I think we have got to 
get our headlights out a little bit farther.
    Now, when you come down to something specific like 
advertising: Will it help? What is cost effective? It is not 
helpful to argue from anecdotal data instead of baseline 
studies. But if you go to Miami and look at the ASPIRA program, 
and if you have a survey instrument that tells you who 
children-at-risk are, and if you bus them into a high school, a 
4-year high school at $2,000 a head and get a dramatic change 
from kids who do not become addicted, we suggest, Mr. Taxpayer, 
that is $2 million a child you saved in societal costs.
    We are saying that it is a lot more cost effective than 
busting the young woman or man 3 years after high school and 
locking them up for 15 years at what we say is $22.6 thousand a 
year to incarcerate a person in America, in the average Federal 
system.
    Those are cost-effective solutions. Now, go to advertising, 
$175 million times two. We want half of it for free. We know 
Americans spend $49 billion a year on illegal drugs. If you can 
keep them off that behavior through age 21, they will not join 
that enormous threat to America.
    I think this will work. It works on every other product. 
Why can't we sell young Americans on a healthy, spiritually 
involved, productive life?
    Mr. Cummings. I also want to thank you for selecting Dr. 
Adger. He hails from Johns Hopkins, which is, of course, in my 
district, and I think you made a wonderful selection. I am sure 
that he will add a lot to what you all are doing.
    Gen. McCaffrey. Yes, sir.
    Mr. Cummings. Thank you very much.
    Mr. Hastert. The gentleman from Arizona, Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman. Gen. McCaffrey, I 
want to focus on where we are allocating our dollars and our 
efforts and where I see differences between the priorities 
established by the President and the administration and those 
which appear to be the priorities established by the Congress.
    As I look at these numbers, and I just want to see if you 
agree with me generally, the Congress over the past 3 years, 2 
years, at least, has focused on interdiction and prevention 
efforts. The President, by contrast--and I include in 
interdiction international efforts, that is, efforts at source 
countries--the President, on the other hand, has focused more 
on drug abuse treatment. You would agree with that?
    Gen. McCaffrey. No, I would not. I think part of the 
problem is how we categorize and discuss these issues. By law, 
we tell Congress we spend money in two areas: demand reduction 
and supply reduction. I think it is very distorting in its 
impact. Most of the money we spend in America on drug efforts 
are law enforcement and prisons, period.
    Mr. Shadegg. Well, let us put law enforcement and prisons 
aside----
    Gen. McCaffrey. That is most of the money, and then go on 
to the next one. Right.
    Mr. Shadegg. Let us look at the four efforts that the 
chairman focused on at the beginning, which are treatment, 
interdiction, international efforts, and prevention. If you 
look at page 22 of this report, which I guess is your report, 
and I tend to look at the numbers, if you look first at 
interdiction, and you begin in 1991----
    Gen. McCaffrey. Right.
    Mr. Shadegg [continuing]. At that point, it was 19 percent 
of the total. In the budget you are requesting for this year, 
it has dropped to 10 percent of the total. That is a 21 percent 
decrease in moneys dedicated to interdiction.
    If you then look in the second column at prevention, an 
area I am interested in because I would like to see kids not 
get hooked in the first place, it is the second column, again 
beginning at 1991 as the base year and looking at the request 
for 1998, you see it is going from $1,479 million to $1,916 
million. That is a slight increase, so it is a 24 percent 
increase for prevention as compared to a 21 percent decrease 
for interdiction.
    But then, if you look at the line right above that, you see 
that from 1991 to now, there has been a dramatic increase in 
treatment dollars. Again, looking at the base year of 1991, we 
are talking about $1,877.3 million versus your request for next 
year, which is $3,000, $3.5, a 38 percent increase.
    So it appears, at least from these numbers, to me quite 
dramatically that the administration is continuing to emphasize 
treatment and, to a lesser degree, 38 percent growth in 
treatment dollars; a 21 percent growth in prevention dollars, 
which are going to the kids that I worry about; and a 21 
percent decrease over that same time period in dollars 
allocated to interdiction.
    I see a fundamental disagreement here, and I guess my 
question is, on what basis do you tell the American people that 
that is an appropriate policy and why?
    Gen. McCaffrey. Well, let me, first of all, suggest that I 
share your concern for prevention, and at the heart and soul of 
the strategy, it seems to me you focus on 68 million children. 
You have got a subset of 39 million, age 10 and below. If you 
can get that 39 million through age 21, we have saved ourselves 
enormous agony down the line. So I basically share your 
viewpoint on that factor.
    I also think your concern about interdiction is 
appropriate. How much is enough? The peak year was in 1991; you 
are entirely correct. It got up around $2 billion. It dropped 
to a low point in about probably 1993. We are now building it 
back up to where it is around $1.6 billion, and I would 
certainly be open to further discussion on whether that is 
enough.
    DOD has got a very tight budget, and they are reluctant to 
throw money at Aegis cruisers in the Caribbean and AWACS flying 
hours unless we can see a payoff.
    Mr. Shadegg. Well, my home State is Arizona, and I am 
worried about the border with Arizona and the developments in 
the press lately. So, I am not so concerned about aircraft 
carriers as I am doing something about a very serious threat 
immediately south of the United States.
    Gen. McCaffrey. We put a ton of money into the Southwest 
Border in the 1997 budget. There is more of it in the 1998 
budget, and your point is entirely correct. We owe the American 
people a Southwest Border effort with the appropriate law 
enforcement capabilities and intelligence.
    Mr. Shadegg. Let me go at this percentage, at this issue of 
what the low point was. Again, looking at that chart on page 
22, at least as a proportion of our total effort, you can argue 
that we hit a low point in 1995. It actually climbed slightly 
last year. In 1995, it became 10 percent of the effort. In 
1991, it was 19 percent of our effort. It climbed last year to 
11 percent, a slight increase; but the numbers you have 
requested would take interdiction back down to only 10 percent 
of our effort. Again, just a slight decrease----
    Gen. McCaffrey. Yes.
    Mr. Shadegg [continuing]. But it looks to me like the low 
point, the world is kind of at the low point on interdiction.
    Gen. McCaffrey. Well, I think what you can also say, and I 
have got a chart here to display it, we have had interdiction 
and the source country strategy money going up since 1993.
    Mr. Shadegg. It did get dramatically cut prior to that.
    Gen. McCaffrey. But you are talking a percentage of the 
whole effort. Right now, at $1.6 billion, that is an increase. 
It was an increase last year. It was an increase the year 
before that. So the 3 years in a row, we brought it up; and at 
the Southwest Border, more specifically, there has been a 
dramatic change in manpower, technology, and funding, and there 
ought to be more to come.
    Mr. Shadegg. I guess let me just conclude by saying, if you 
look at, at least for the last 3 years in a row, the Congress 
has put more money into interdiction than the President 
requested, and I do not think we are only at this level of 10 
percent interdiction right now not because of the President's 
request, but because of the Congress's request.
    Indeed, look at the younger drug potential abusers, 
focusing on youth, Congress for the last 3 years has increased 
money for interdiction and for the last year has increased 
money for both source countries, and for prevention. By 
contrast, the President has tried to put more money into 
treatment, and I guess, again--and I know my time has expired--
I am interested in the President justifying and you justifying 
to the country why we ought to be----
    Gen. McCaffrey. Yes.
    Mr. Shadegg [continuing]. Increasing our allocation for 
treatment as distinguished from those efforts which I think 
focus on youth, which include interdiction, source country 
efforts, and prevention.
    Gen. McCaffrey. The search for the truth and who submitted 
what budget and what action was taken is a tough one. Let me 
tell you what I think is the case, and I have got a chart that 
I can share with you to display it.
    What, in fact, has happened since 1991, I will assert, is 
that each year until the 1995 budget, the administration, 
whether it was Republican under Bush or Democratic under 
President Clinton, submitted an interdiction-INL combined 
budget. In every year, it was cut by the U.S. Congress, whether 
it was controlled by the Democrats or the Republicans, until 
the election-year budget.
    In fact, that is what happened. Then we started up in the 
election-year budget, on the 1997 budget, and on the proposed 
1998 budget. So, I would suggest to you that the President's 
requests for 3 years in a row was what we got funded. We got an 
additional $250 million out of you this last year, which was 
great. Let me just, if I can, show you the numbers.
    Mr. Shadegg. No. My time has expired. If you just said that 
only in the election year did the Congress increase funding for 
interdiction, that is flat not true, because the Congress----
    Mr. Souder [presiding]. We will come back to a second 
round. We can follow this up in the second round if there was a 
questionable statement in that, because the budget that we had 
to deal with in our first year was already through when we got 
in.
    Gen. McCaffrey. I agree. Agreed.
    Mr. Souder. Mr. Barr, from Georgia.
    Gen. McCaffrey. Mr. Congressmen, I still basically agree 
with your point. Prevention, Southwest Border; I am entirely in 
agreement with your central argument. Thank you.
    Mr. Souder. Mr. Barr, from Georgia.
    Mr. Barr. I just do not know where to start, General. You 
all are masters of understatement, I will tell you that. We had 
a Deputy Assistant Attorney General here 2 days ago, who says 
that the extent of corruption in Mexico is not fully known. Now 
we hear that our intelligence did not pick up on this problem. 
What an understatement.
    I think we have got some serious problems here, but let me 
try and start with this document. I hope you all do not 
distribute this to the officers who are putting their lives on 
the line fighting the war against drugs, the Spanish word for 
which is ``guerra.''
    It was used the other day, General, up here by generals 
from Colombia who are, indeed, fighting a war, a war in which 
their citizens are being murdered; in which their military and 
police are being murdered; in which equipment built in this 
country and furnished to them to protect themselves is being 
shot out of the skies.
    We had an officer here from, I think, the Border Patrol the 
other day who was telling us about men and women under his 
command that are being shot. Where, in heaven's name--and I 
would like to know who, on page 5 of your report, says that 
this is not a war--where in God's name did that notion come 
from and that language? Is that yours? That is unbelievable, 
General, to talk in this report that a metaphor of a war on 
drugs is misleading.
    Maybe it is only misleading because it is not strong enough 
to send a signal to the American people and to law enforcement 
officers, both on our side of the border as well as in Latin 
America that people affected by drug abuse in this country are 
victims and ought to be helped, that this is not a war on 
drugs, that that is too harsh a term, it is not hard to 
understand why I think this administration's drug policy is an 
abject failure.
    I do not think that the figures that we are seeing are 
artificially high. When I talk with police officers and parents 
and school children about the extent of drug usage, which is 
going up among young people in many categories, I do not walk 
away from those discussions, General, that these figures are 
artificially high. I think they are very accurate, and if 
perhaps anything, perhaps not quite accurate enough in terms of 
the tremendous increases that we have seen in some areas.
    We have heard other testimony, General, earlier this week 
and 2 weeks ago from Mr. Gelbard over at State. State 
apparently does not even recognize that in Colombia there is a 
union between the formerly terrorist organizations and the 
narcotics traffickers, and, indeed, the term ``narco-
terrorism'' is a very realistic term.
    We see in Mexico a case very much like the Ames case in our 
country here, where all of the signs were there for an extended 
period of time that something stank--bank accounts, lavish 
living, and so forth--and we apparently either just turned a 
blind eye to it in an effort to make it appear as if Mexico was 
really doing a lot more than it was perhaps to justify loaning 
them billions of dollars. I do not know, but all of the signs 
were there, and then to say our intelligence did not pick up on 
this problem is a rather slight understatement.
    You mentioned, General, that you had traveled to Hollywood 
for 2 days, and that is certainly a component of this, to talk 
with the people out there about the glorification of drugs in 
our society. I would like to see some of our people travel down 
to Colombia instead. It may not be quite as nice as Hollywood; 
it may be a little more dangerous.
    But we have heard from the men and women who do believe 
that this is a war, and I think they are accurate in their 
assessment, who put their lives on the line. We have heard from 
them, and they have told us that we are not helping them nearly 
to the extent that we should or that we have promised them.
    Colombia, in particular, I am talking about. The 
decertification of Mexico, contrary to what our Government 
leaders told the Colombian leaders, the men and women in the 
military and in the police are, indeed, fighting the war 
against drugs down there. Contrary to what we told them, the 
military assistance, the support has, indeed, slowed down 
tremendously, and they have told us it is hurting, hurting 
their effort, both systemically in terms of erosion of their 
morale of their officers, as well as their ability to actually 
fight the war on drugs.
    I have a letter here, dated February 25 of this year, from 
the Colombian national police general, Gen. Serrano, to the 
House International Relations Committee. I do not know whether 
you have seen it, but I suspect you know what it says, and that 
is that we are not helping them to the extent that we can or 
that we promised.
    I am just phenomenally disappointed in what is going on 
here. I think we have an absolute failure of leadership on the 
part of our Government, and this business with Mexico is just 
one little example of it. We apparently have not only no 
strategy in dealing with this problem, but we have members of 
our own Government, and we had several of them here the other 
day, they do not even know who is on the damage assessment 
team.
    I would appreciate some thoughts. I know there is a lot in 
there, but it is very heartfelt, and it represents the views of 
an awful lot of citizens in this country who, I think, would be 
as disappointed as I am if they saw this book.
    Gen. McCaffrey. Well, Mr. Barr, if I may, let me, first of 
all, tell you, I share your own sense of sadness about the way 
Mexico has developed over the last certainly several years. It 
is a great tragedy. It is something that we probably have to 
work with for a decade to come to address.
    I certainly share your viewpoint on the nature of warfare 
in the source country zone: Colombia; Peru; Bolivia, to a 
lesser extent; Mexico, certainly. I must remind you, if I may, 
quite publicly now, you are dealing with a guy that has been 
wounded in combat three times. I know all about war.
    Mr. Barr. Let us not get into that. Nobody is questioning 
your patriotism, and I am not saying that it is just a war down 
there; I am saying that it----
    Mr. Barrett. Mr. Chairman, regular order.
    Gen. McCaffrey. Yes. Mr. Barr, I just wanted to make sure 
you understood that I have been in Colombia, I have been in 
Mexico, I have been in Peru, and I do know what I am talking 
about. Now, the problem in Mexico and Peru deserves our 
support, but I am not too sure that you and I ought to see 
ourselves as personally responsible for the outcome of 
selection of their government officials.
    Now, let me, if I may, directly respond to your concerns. I 
might add, you misunderstood something I said. The figures that 
are artificially high means we do not need to tolerate drug 
abuse rates at the level we currently have. Twelve million 
Americans regularly using drugs is too many, and we can make it 
lower than that. That is what I mean by ``artificially high.'' 
I am well aware, having been in most urban areas in America and 
in rural, Midwest communities, that those figures are accurate 
and, indeed, are getting worse.
    I would also suggest I join your own viewpoint that police 
and military forces in Colombia and elsewhere deserve our 
support, and they will get it from me, and they have had it in 
the past. I know these people, and I visited them, and 
understand what their concerns are, and will fall in line to 
try and move them forward.
    Now, Mexico is in a very tough situation. They are under 
internal assault from violence and corruption. That $30 billion 
came out of our communities. That is what is helping destroy 
Mexico.
    They are trying to move to a modern economy, to a 
multiparty democracy. We believe their senior leadership are 
honest men and women. We were wrong about Gen. Gutierrez 
Rebollo. There are others we will see in the future who will be 
affected by this corruption, but where we find people of good 
will, we deserve to stand with them and to publicly state we 
have that viewpoint.
    Now, finally, if you will, we may just have a difference of 
conceptual organization. The language on not using the ``war on 
drugs'' comes directly from me. Now, I borrowed that basically 
from having a 32-year involvement in the U.S. Armed Forces in 
which we went through the seventies where the armed forces 
almost got wrecked by drug abuse, and we worked our way out of 
it, and I can assure you it was not by arresting people and 
kicking butt.
    We tried to use drug education prevention programs. We 
focused on treatment programs. We had an advantage over civil 
society of sergeants, of people who got involved with young 
people and treated them with dignity and gave them meaningful 
work. Because of that and drug testing and the commitment of 
people like me, after 10 years of hard work, we are a drug-free 
institution today, and that is the kind of commitment I would 
like to bring to America.
    So if you are concerned about the metaphor of a cancer, we 
will try and make sure your worries are taken into account. I 
know you are committed to this issue, as I am, but I really 
would urge you to understand that this is not a cop-out; this 
is a dedication of a 10-year confrontation with a serious 
issue.
    Mr. Hastert. The gentleman's time has expired.
    General, I think one of the things, we are getting in a war 
over words, and we need to have a war over action, I would 
think. To me, a war is something ultimately that you win or 
lose, and I hope whatever this action is, it is something that 
we can win. Our country depends on it, our children depend on 
it, and certainly our future depends on it.
    I just want to lay out some parameters, and I am going to 
have to vacate the chair here in a few minutes. But I want to 
lay some parameters that I think concerns us and certainly 
reflects my views and the views of a lot of people that you and 
I have both talked to.
    We look at your chart here, the chart of the National Drug 
Control Budget, and I know the budget does not always reflect 
exactly all the activity that goes on because there is 
resources that are already in place, resources that we have to 
replace, resources that have built up over the years. So there 
are other activities going on.
    But certainly the domestic law enforcement, which includes 
DEA and FBI and INS and the joint task force and Justice and 
everybody else, you know, those are the people who are out on 
our streets day in and day out fighting that war or that 
action, whatever kind of terminology you want to call it. I 
cannot say that it is enough or not enough. We need to make 
sure that they have that support and the means to carry out the 
job they have to do.
    The next issue of treatment. I guess that is where the real 
question is, and I have talked to a lot of folks across this 
country. Treatment is important. We need to take those people 
who have made mistakes and have gotten involved in drugs and 
try to turn their life around. The fact is, at least most 
statistics of people tell me, about 80 percent of those people 
go back to using drugs again.
    Maybe that means we need a better program, we need to find 
new ways to do that, but to a lot of folks it means that it is 
important to do this, and it is certainly important to try to 
help people who have made mistakes, but we have spent a lot of 
money sometimes to no avail there.
    The other issue is the interdiction issue, and we look at 
real numbers there. For instance, the treatment has gone from 
about, I believe, $1.8 billion a couple of years ago to about 
$3 billion in your budget today; and, again, you cannot reflect 
everything by dollars, but there has been a pretty good 
increase there.
    When you start to look at interdiction, we have gone to a 
high in the early 1990's of $2 billion to a low of $1.2 
billion, and now we are coming back up to about $1.6 billion. 
We have never reached the level that we were at one time.
    To a lot of us, the interdiction is being able to take that 
stuff off the streets, to stop it at the borders, to stop it 
coming in by boat or by plane or by carrier. Or the x-ray 
machines that we need at the border. We talk about 11 x-ray 
machines. We probably need 111 x-ray machines. I do not know. I 
am just pulling numbers out of the air, but, you know, we need 
a lot of stuff to be able to do the interdiction.
    We need the people to do it, and that is an area that I 
think if we can stop drugs coming across the border at a cost 
of $2,000 a kilo before they get on the streets and they cost 
$200,000 per kilo or at some market price or whatever numbers 
you want to pull out, that is an effective way to do it. But 
even more so, when you get down to the international 
operations, you talked about Peru. I think that we have the 
potential to be very, very successful there. We need to talk--
and we have not even scratched the surface--we need to talk 
about what we are going to do in Southeast Asia.
    Quite frankly, because we do not have the kind of 
relationships diplomatically with some countries like Minmar 
and China, that we cannot get our DEA agents or will not let 
our DEA agents or our intelligence in there to help them solve 
their problems or crop replacement situations, we need to have, 
and I think you agree with us, a regional strategy there that 
we really seriously need to talk about, because cocaine is one 
thing; heroin is something else.
    Now, heroin comes from Colombia, but also a lot of it comes 
from the Golden Triangle and the environs around there. We need 
to talk about that, and I do not think we have even scratched 
the surface.
    That is all part of that international effort that I think 
we need to beef up and put the dollars in so we can stop the 
stuff, for instance, cocaine, at $200 a kilo. It is certainly 
pretty effective to stop it at that price rather than to stop 
it at a huge price on our streets. If you would, take a couple 
of minutes and kind of reflect on that, if you would.
    Gen. McCaffrey. The support for law enforcement is 
absolutely essential. This budget has gone up. It is an $800 
million increase. It still reflects the dominant commitment to 
saying that drugs are wrong, drugs are disapproved, they are 
against the law, and we will support law enforcement, and we 
will lock people up where they sell them or become involved in 
violent crime. We ought to do that. We ought to pay the bill up 
front. That is not an option; that is an obligation to the 
American people.
    Now, let me talk briefly about treatment. If you would like 
to understand the contribution of effective drug treatment in 
America, you have to go ask a narcotics officer in Los Angeles, 
New York, rural Iowa, or wherever, because there is not a 
police officer in this country or someone involved in the 
American Correctional Association that does not understand that 
we cannot just lock people up, put them in the slammer for a 
month to 7 years, and put them back on the street.
    We also have got to take into account this is a chronic, 
relapsing disorder. Cures, like smoking addiction, do not come 
easy, but it is relatively easy, if you have a treatment 
methodology and a follow-on program, to reduce the consequences 
of crime, violence, AIDS, spouse abuse in America. I would just 
tell you that there is a tiny number of Americans, percentage-
wise, who are devastating our society, 2.7 million chronic 
addicted; and they consume 80 percent, some argue, two-thirds 
to 80 percent, of the drugs in America. You have got to go into 
that community.
    Some of them are alleged to be committing crimes of as high 
as 300 felonies a year. So, when I talk to police officers, 
they are the ones that talk to me about treatment alternatives 
to crime. I think we have just got to go that route. We have 
got to make sure we are spending our money wisely. I think your 
point is a good one.
    I think the notion of getting enough interdiction is 
unarguable. We have got to get technology and common sense and 
better organization into our Southwest Border. We have got to 
create the Customs, Border Patrol, and Coast Guard that we need 
for the next century, and INS. We have got to get better 
organization of our intelligence service, and I owe you 
continuing responses on that.
    Peru, we need a big idea. If we want to do something 
dramatic about cocaine, Peru is the place to go, even though 
Colombia has now edged out Bolivia as the second largest nation 
in the world on hectarage under cultivation. Cocaine seizures 
in Colombia are down, and cultivation is up by 32 percent, but 
Peru is where 70-some-odd percent of the cocaine in America 
comes from.
    I think one of the really fundamental points you made, Mr. 
Chairman, is what do we do about heroin? If you want to solve 
heroin, you have got to recognize we have such a low part of 
the worldwide consumption, that Colombia alone and Mexico could 
provide all of our requirements. Then we look at this 
incredible production of opium in Burma, Afghanistan, and Laos, 
which are the top three nations in the world, and what are we 
going to do about it?
    I think you are entirely correct. Your trip over there was 
very useful. We are going to have to try regional cooperative 
efforts and not think that we can do this, the United States, 
unilaterally. The Chinese must understand that they are more at 
risk from Burmese heroin than Baltimore is. They have got a 
million addicts or more, and it is a threat to our Vietnamese, 
Cambodian, Laotian, Thai, and other regional partners.
    What I would also, though, remind all of us is we look at 
what comes in and out of this great country, the richest 
country on the face of the earth. It is 340 metric tons of 
cocaine, 10 metric tons of heroin. It is at most a millionth of 
the annual movement of tonnage in and out of this Nation. It is 
a tiny BB hidden in a bale of hay, and we are just going to 
have to do better with technology and intelligence, not 
manpower. There is a pretty important BB in that bale of hay, 
and we are going to have to work together if we are going to be 
able to find it; whether it is a needle in a haystack or a BB 
in a bale, we need to work at that.
    One other comment on that. I understand that there are 2.7 
million people who are the problems and the recidivists in the 
treatment programs. I hope that we can help them. We have also 
got 10 million kids at risk that we need to make sure that they 
cannot get their hands on this stuff or it is awfully tough to 
get their hands on this stuff.
    Mr. Hastert. I thank you for your testimony. I pass on now 
to Congressman Barrett.
    The gentleman from Indiana, Mr. Souder.
    Mr. Souder. Only a small percentage of the baggage going on 
airplanes are guns and bombs, so we have to get them all. It is 
not easy and it is expensive and that is one of the problems we 
have when we are trying to balance the budget.
    I am curious. You were commander of SOUTHCOM in Panama. Did 
you ever know Gen. Gutierrez in that capacity?
    Gen. McCaffrey. No, I did not. I made one trip into Mexico 
during that period of time with Dr. Perry, but Mexico is not 
part of the SOUTHCOM area of responsibility.
    Mr. Souder. Had you ever heard anything about him prior 
when you were in that command? I understand that it is not 
completely logical, in my opinion, that it is not a part of 
SOUTHCOM, but that is another question. Had you ever heard 
anything about him or concerns or----
    Gen. McCaffrey. Well, before we went down to Mexico, I 
think we went down and met him on a high-level contact group in 
December. Before we went down there, I had an intelligence 
briefing on our viewpoint, again, on the Mexican leadership I 
would be dealing with, and that certainly included the Attorney 
General, Madrazo, and Gen. Gutierrez Rebollo. So I went down 
there, having read our assessment of these two people.
    Mr. Souder. Our assessment at that time was positive?
    Gen. McCaffrey. Indeed. Our publicly stated opinion 
essentially reflected what we said in private, and we retain 
our viewpoint that the Attorney General, Madrazo, is a noted 
legal scholar, a human rights activist, a man of high integrity 
and dedication to Mexico. The assessment on Gutierrez Rebollo, 
based sadly enough, on his splendid performance against 
selected drug criminal organizations, was that he was a real 
hard-nosed field soldier. It was sadly mistaken. The Mexicans, 
of course, are horrendously disappointed by this blow to their 
own national security.
    Mr. Souder. One other curiosity. You mentioned twice 
earlier in your testimony to it being alleged and saying facts 
will unfold, which we all understand, except it does not seem 
to be being denied that he was in Fuentes's apartment. There 
are some facts that are in dispute and some facts that are 
pretty irrevocable already on the table. Would you not agree 
with that?
    Gen. McCaffrey. I am not trying to be legalistic, Mr. 
Souder. You know, what I need to understand is that in 
Colombia--I already know that the President of Colombia is 
alleged to have been elected with $6 million in drug money; 
that the Minister of Defense that I dealt with down there, 
Botero, is in the slammer; that several others--Medina, the 
campaign chairman--are under indictment. I am aware of the 
corrosive power of $30 billion of drug money on democratic 
institutions.
    So what we are going to try to do in Mexico is try and 
support this President and his senior officers as they roll up 
this latest corrupting influence to their police forces, but we 
have got to keep a very objective eye on what is happening.
    Mr. Souder. Our concern, and just so you understand that it 
is intense in Congress right now, and if you were in our shoes, 
you would understand it as well as in your own shoes, and that 
is, is that I am not one who is particularly defending Colombia 
at this point other than that their Attorney General and their 
national police and their defense are dying on the front lines, 
and they could have been removed by Samper. I think we need to 
keep the pressure on Colombia because they are letting these 
people sit in prison and operate their cartels, but they are 
moving.
    The question, however, comes when we come back to Mexico is 
that we heard at the hearing earlier this week that there are 
concerns about up to 90 percent of the police force in Tijuana 
and Baja California, and we pulled back agents; that there are 
concerns about two of the Governors of Mexico; that we have the 
drug czar going down, apparently as part of a cartel; we have 
seen assassinations all over the country; one of the Governors, 
if, indeed--and I do not know enough about it, and the evidence 
here is still sketchy on the Governor, Sonora, but he is 
clearly the man, if not one of the key men, behind President 
Zedillo's election, which has not come out as much in the 
media; that the core question here is, on what basis, other 
than we met with President Zedillo, we have met with the 
foreign minister numerous times.
    I think they are wonderful men, but quite frankly, you 
thought all these other people were good men. Our intelligence 
briefings said they were good men. Gen. Gutierrez, for example. 
There were others in the process that we dealt with in that 
period of time who turned out--I mean, we have touted the 
Salinas administration, which certainly had a lot of questions 
with it.
    Gen. McCaffrey. Yes.
    Mr. Souder. Colosio is dead. That we are looking at this 
type of thing and saying, we want to believe you, we want to 
believe them, but you are telling us that our intelligence is 
lousy, if it exists at all.
    Gen. McCaffrey. Well, I really did not say that, Mr. 
Souder. I said our intelligence was wrong and confirming that 
the Mexicans had made a drastic mistake in selecting this 
general officer as their head cop.
    Mr. Souder. One of the questions here is that we seem to be 
getting surprised a lot lately.
    Gen. McCaffrey. Well, let me also tell you that there ought 
to be a twofold approach, in my judgment, in dealing with 
foreign governments like the French, the Israelis, the 
Mexicans, and the Canadians. In public, I think what I ought to 
do is publicly state those ethically correct ways that we are 
working with a foreign government and praise their leadership 
where we see honest men and women in public life, and privately 
we ought to push to make changes.
    That is what we do with other major nations, and that is 
what we have done with Mexico. But I would urge you to 
understand that we focus a lot of attention on these countries, 
and we have got people all over them. I listen to the DEA, the 
FBI, the agency military attaches. I have traveled there. I 
know these people. I do not have a three-piece suit. I have 
spent most of my life banging around the world. I speak 
Spanish, and I am not naive. I am committed to defending the 
American people.
    Mr. Souder. One of the concerns I have, that in your report 
you say that, or you testified earlier today, that we should be 
looking at a new concept for enforcement in intelligence by 
next summer. Did you mean the summer of next year or the summer 
of this year? Wouldn't you, having been a veteran in the Gulf 
war, if you had gotten this kind of intelligence information, 
heads would have been rolling already?
    Well, we can argue whether it is a war or a cancer; I think 
it is both.
    Gen. McCaffrey. Yes.
    Mr. Souder [presiding]. But this is pretty upsetting.
    Gen. McCaffrey. Well, it should be. I think we have got 
tremendous law enforcement agencies at work in the Southwest 
Border and supporting Mexico right now. They probably need much 
better conceptual structure to it. I think our intelligence 
system facing south can be reviewed.
    Now, I would not want to say that it is a failure. I have 
been working with the Agency for the last 4 years, looking 
south, in DIA and DEA and the other people that try and pay 
attention to our southern neighbors. We know a lot more, sadly 
enough, about criminal activity in the Chapare Valley than we 
do about drug addiction in Baltimore.
    So I think that there is a lot of very capable, dedicated, 
and stable view of what is going on to the south. I do not 
think we ought to overreact. We made a mistake in accepting the 
judgment of the Mexican administration, but they are doing as 
good as they can. We are just going to have to buckle down and 
do better.
    Mr. Souder. Well, with that set up for Baltimore, we will 
go to the gentleman, Mr. Cummings, from Maryland.
    Mr. Cummings. Thank you. Gen. McCaffrey, you said something 
a few moments ago that really kind of struck my interest in 
answering a question. You talked about the military and the 
efforts that have been made in the military to rid this 
institution, that is, the military here in the United States, 
of a drug problem.
    Just from the way you answered the question, I take it that 
there are some strategies that were used to accomplish that 
that you assume can be used in the bigger picture, and I am 
just trying to figure out how did the military do it. I guess 
when I look at the military, I look at an institution that is 
sort of restricted.
    In other words, when you are talking about the greater 
society, you have got people everywhere, but when you have got 
military bases, you have got certain controls there; and I am 
just trying to figure out how it was done, and of those 
strategies what can be used to address this problem that we 
have in the United States all over our country?
    Gen. McCaffrey. Mr. Congressman, I think it is a legitimate 
question. It is one I am somewhat uneasy sometimes to answer 
because I am keenly aware that the tools that the U.S. Marine 
Corps uses or the 82d Airborne are not necessarily appropriate 
for a free and open society with a fundamental commitment to 
rights to privacy and due process and, indeed, a sense of leave 
us alone.
    Now, having said that, the best thing we can learn out of 
the military's experience in the seventies and eighties is 
these are the same beautiful, young women and men that are in 
Baltimore that are in the 82d Airborne and on ships at sea.
    So I came into this position with a sense of optimism and a 
faith in American young people, and I think that when they have 
options and are treated with respect, when they have meaningful 
work to do, when people say ``zero tolerance for drugs'' and 
set the example, not people that say--like 72 million Americans 
who have used an illegal drug--not people who say we have never 
used drugs, but we are not going to use them anymore. But if 
you stay at that process for a long time--in this case it was 
probably a decade--you end up with a lot less drug use.
    Now, because of the military and we had the drug testing 
system, we ended up with darn-near zero. Now, that may be 
unrealistic, zero. We have still got an alcohol abuse problem 
of significant proportions in the armed forces. We have got too 
many people smoking cigarettes, but we have done an incredible 
piece of work. So has the New York City Police Department. So 
have the faculties of a lot of colleges. So has a lot of big 
business. There is a zero tolerance for drug abuse in most of 
large, corporate America.
    I am not persuaded that sensible drug prevention and 
education programs cannot produce dramatic results over time. I 
believe they can.
    Mr. Cummings. I am sure you are familiar with this concept 
of--I forget the author's name, this guy that wrote ``Fixing 
Broken Windows,'' talking about zero tolerance and his 
philosophy that you have to start with the petty offenses and 
be hard on the petty offenders so that problems do not increase 
and escalate. I assume that you have contact with police 
departments all over the country, and you just talked about 
zero tolerance.
    Do you agree with that concept of fixing broken windows?
    Gen. McCaffrey. I have been fascinated with watching the 
incredible success in Miami, San Diego, Los Angeles, New York 
City, Commissioner Safir and his people. It is simply awesome 
what U.S. law enforcement is doing now on their own, to a large 
extent, with community policing, with getting in there and 
getting involved with measuring the right things. The New York 
Police Department does not measure the number of arrests. They 
do not measure the number of kilograms of drugs seized. They 
measure and hold their precinct captains now responsible for 
the reduction of crime that wrecks the quality of life in New 
York City. It has taken them 5 years, and they are achieving 
incredible results.
    I see it in other cities. Miami is probably half as bad off 
as it was a decade ago. So I think community policing is a big 
contribution. We can do more to support their efforts. This 
High Intensity Drug Trafficking Area program that Congress has 
now put $140 million into; we have 15 HIDTAs. You just 
designated five new ones in the last budget. This is a 
contribution to America's law enforcement, prosecution, 
treatment, sensible policy, so I think there is some real 
progress.
    Mr. Cummings. There was a show on last night, one of the 
national shows, that was talking about we are spending so many 
dollars incarcerating such a large portion of our population 
and that as we spend those dollars incarcerating people--and 
they showed a parallel how money is being taken away from 
schools, from educating young children.
    When I look at the charts and I look at the money that we 
are spending with regard to domestic law enforcement, it just 
kind of concerns me that some kind of way we have got to get to 
that small population that you talked about a few minutes ago 
that are using the drugs, committing the crimes, filling up our 
jails, and literally taking dollars away from our children.
    Gen. McCaffrey. Sure.
    Mr. Cummings. It is sad.
    Gen. McCaffrey. I might add, though, that at that point you 
have lost. When you are dealing with 2.7 million chronic-
addicted Americans, it is a painful situation at best. We can 
reduce the damage they do to themselves or families and their 
communities, but it is not an easy way out. It seems to me the 
investment up front in understanding, the solution is parents, 
educators, ministers, coaches, local law enforcement, and 
positive options for young Americans. That is the cheapest way 
to address a $70 billion damage to American society out of drug 
addiction.
    Mr. Souder. Thank you, Mr. Cummings. I also want to make a 
brief comment, an invitation to work together. One of the 
things that we have done is formed a new Empowerment 
Subcommittee that I am going to be chairing to work on a number 
of these issues, because in addition to the drug problem, we 
have to look at the economic development, the school, the 
juvenile justice questions, and I would welcome you sitting in 
and helping us as we go through----
    Mr. Cummings. Mr. Chairman, I accept your invitation. I 
will do that.
    Mr. Souder. The gentleman from Florida, Mr. Mica.
    Mr. Mica. Thank you. Could one of you gentlemen put the 
chart up that refers to cocaine casual use?
    Mr. Drug Czar, I hate to criticize your report and your 
charts, but I think that your report is trying to put a pretty 
face on some pretty ugly statistics. To put that chart in there 
with that title is a little bit offensive to me, for several 
reasons. Next to it, it shows the dramatic increase by our 
youth of cocaine, and I looked through the charts to see about 
heroin, which is, as you know, and you have been in my 
community, heroin use is off the charts.
    I submit to you that cocaine use is down because heroin is 
so damned cheap you can buy it almost as cheaply as cocaine and 
that it is becoming more available. The production in your 
statistics show that it is available, so I am not pleased with 
the presentation that shows our drug policy is working, casual 
use is down. If it is down and so great, we look at every 
statistic, cocaine has flattened out a bit, heroin coming off 
the charts, and marijuana, according to your charts, is 
increasing.
    So I think that you have given us an accurate portrayal of 
what is happening with these charts.
    Gen. McCaffrey. Well, I am not quite sure that I follow 
your point. In fact, cocaine use is down. It is really 
unarguable. It has gone from a little under 6 million----
    Mr. Mica. It is being supplanted by heroin.
    Gen. McCaffrey. No, probably not.
    Mr. Mica. Well, in my community they are dying----
    Gen. McCaffrey. Well, let me, if I may, give you----
    Mr. Mica [continuing]. In middle-class suburbs on the 
streets.
    Gen. McCaffrey. Well, let me give you what we think is the 
case. What I will also grant you, though, is that our numbers, 
which I use with great confidence, are just the best numbers I 
can get, and they are subject to debate, and we owe you better 
statistics in the future.
    But having said that, heroin use in America, the problem is 
there is a lot more of it available, it is higher purity, it is 
lower cost, and new populations are trying it, young people, a 
lot of young, white Americans in suburbs, with a tremendous 
increase in the number of folk getting in trouble because they 
are using such high-purity stuff.
    But heroin use so far, thank God, has not yet gone off the 
charts. It probably will if we do not get organized. Now, your 
area, which I was grateful to visit and listen to their 
problems, has had nine youngsters die of heroin overdose in the 
last year, greater than the city of Los Angeles. You are in the 
absolute center of the storm of Colombian heroin, which is 
showing up on the Eastern seaboard, aggressively marketed by 
the same criminal organization that is pushing cocaine.
    Mr. Mica. Again, the charts, we can produce these charts, 
but it is the perception, too; and I am telling you that 
Americans fear going to sleep at night in their own 
neighborhoods. I live part of the time in Washington, DC, and I 
fear going to sleep in this community for the first time, and 
in central Florida. Your statistics, to me, just do not jibe.
    There are encouraging signs. The last 5 years, drug-related 
emergency department episodes did not rise significantly, and 
then you still show a rise here on drug users burdening our 
system. There is a steady decline in drug-related homicides 
between 1989 and 1995. If you take out New York City and some 
of the other places where there have been some local efforts, 
it is still a disaster.
    Washington, DC--399 people killed last year. Last night, 
they blew away a couple of more, and there is a couple, I saw 
on the news this morning, in critical condition. It is 
everywhere; it is not just my community.
    Federal drug prosecutions; I do not see a damn thing about 
them in here. Excuse my language, but I get a little bit 
excited about it. Federal drug prosecutions are down, and I do 
not see this as part of the strategy.
    Now, if you said that New York City, one of the reasons is 
zero tolerance, if you said that for 10 years if you have a 
zero-tolerance policy in your chart--we do not see the rest of 
this chart, but if you look at the statistics for 10 years 
under the past administrations, it was going down, down, down, 
and comes off the chart in 1993--tough prosecution does work, 
and the Federal prosecution is diminishing.
    Gen. McCaffrey. Well, you know, what I think of your 
frustration on the terrible impact of 3.6 million addicts on 
Orlando, Florida and rural Iowa, and Missouri, I could not 
agree more. There are more people sick, and their age rate is 
up, and violent crime is disastrous.
    Mr. Mica. Methamphetamine is rampant. One of your charts 
shows that. They are in the little communities.
    Gen. McCaffrey. We have tried to portray that. I could not 
agree more.
    Mr. Mica. One last point, and let me say a couple of 
things. First of all, you mentioned that we do not have a 
border between Mexico and the United States. Well, I tell you, 
when they murdered Enrique Camarena, we had a border between 
the United States, and we had some leadership from the Federal 
level, and we closed down that border. If it is necessary and a 
policy of the United States, we should close down and tighten 
that border, and a lot is going to depend on what you all do in 
the next few hours, as far as your policy toward certification.
    You go back and see what Willie Von Robb did in closing 
down the borders and tightening up. So it is part of the 
national policy.
    The other thing, too, is I salute your education. You know 
I will spend any amount of money we need for enforcement, 
education, for treatment, as long as it is successful. But I 
ask you, the $180 million or $175 million you have put in for 
public advertising; who owns the air waves in this country?
    Gen. McCaffrey. Right now, if you want to buy TV time----
    Mr. Mica. Who owns the air waves? Who issues the licenses? 
In your own report here, you give us information that public 
service announcements have dropped 20 percent. In fact, the 
people own the air waves. A license and franchise is given by 
the Federal Government, and up until a few years ago, the 
media, in fact, television and radio, who take a license and 
franchise from the people, were giving free PSAs back in the 
1980's, and that has dramatically declined.
    I submit that they should also be given this public 
franchise back, and if necessary, we should have a requirement 
that they participate in this because it is in the national 
interest--they hold the public franchise--and not rip off the 
taxpayers in this manner.
    Mr. Souder. I wanted to make a brief comment on this chart, 
too. What we see often is typical of a lot of different things, 
and that is, is that middle- and upper-class people adjust when 
they see the harm and when we start a crusade. To some degree, 
that is what has happened in cocaine, the kids in the crack, 
the methamphetamine.
    In Fort Wayne, in 1992, we had 39 hits of LSD taken. In 
1994, 9,790 hits of LSD. It is the most vulnerable, least 
educated, and the poorest who are getting left behind, and the 
only point I think we are trying to make with this is while we 
need to say we are pleased with some of the success, we cannot 
beat our chests too much, because we are drowning in the 
highest risk areas.
    Gen. McCaffrey. I agree with you, Mr. Chairman. That chart 
is meant to say exactly what it says: Drug use in America is 
down by half. Cocaine use is down by 75 percent, and new, 
dynamic drug threats are emerging, including methamphetamine. 
Our children and the addicted of America are destroying our 
cities, our communities, and our work places. It is a very 
serious problem. It is $70 billion and 16,000 dead, and that is 
why I am over here.
    Mr. Souder. Mr. Barrett from Wisconsin.
    Mr. Barrett. Thank you, Mr. Chairman. I agree with the 
chairman that we should not be beating our chests, but I also 
do not think we should be beating you over the head, General.
    I think that you have done a very good job today. I think 
that you have been very honest, you have showed us where there 
are problems. You have not tried to sugar coat anything. You 
have explained to us that this is a serious problem, and as I 
said in my opening statement, I think you have one of the most 
difficult jobs in this entire country.
    If you ask the American people whether drug abuse is a 
Democratic problem or a Republican problem, they would say, 
``We do not care; it is an American problem.''
    Gen. McCaffrey. I agree.
    Mr. Barrett. I think it is a serious mistake for us, if we 
decide, well, just because the Democrats are in the White House 
and you were appointed by a Democratic President, that somehow 
we are not winning the war or the cancer battle or whatever you 
want to call it. This is too serious a problem to just play 
politics with, and we can have some legitimate differences of 
opinion, and we do have some legitimate differences of opinion 
as to priorities pertaining to treatment, to prevention, or 
interdiction, or how many dollars we should put into police 
officers or prisons.
    But I think that this, more than virtually any other issue, 
is an issue where we have to work together. I think that you 
have provided the leadership on a very nonpartisan basis, which 
I think it has to be. I would not want you in here being a 
Democratic hack. I think that would be a huge mistake, but I 
again want to commend you for the job that I think you are 
doing; and I do not want your job, because I think it is too 
hard a job.
    I think it is far too hard a job, and as I also indicated 
in my opening statement, Americans are very cynical about this 
battle because they have not seen the drug use, and they have 
seen people whose lives have been ruined. So I think that we 
have to combat the cynicism, and I do not think that we as an 
institution should be increasing that cynicism.
    So, again, congratulations, and anything I can do to help 
you, I will do to help you.
    Gen. McCaffrey. Thank you.
    Mr. Souder. Mr. Barr of Georgia.
    Mr. Barr. Thank you. General, I would suspect that you and 
I would speak for probably everybody in this room and everybody 
in the listening and viewing audience that we do not want kids 
to smoke cigarettes. But the problem that I have--and you all's 
strategy is replete with references of drugs, tobacco, alcohol, 
drugs, tobacco, alcohol, drugs, tobacco, alcohol--and I think I 
understand perhaps at least what you are trying to say, and 
that is that, to some extent, perhaps behavior that is bad at 
the beginning becomes worse as kids get older. They use tobacco 
and they know they are not supposed to and it just gets worse.
    That is a good point. I disagree with making that point in 
a way that--and this is the danger that I think linking those 
three really will result in. Young people do not see these 
things as rationally as we do, and if we, as the administration 
is doing, are putting out a strategy that links these three 
things constantly, and I have heard the President say it also--
he is very adept at that; he will get two or three words, like 
the business we had last year with the balanced budget, the 
environment, children, and elderly, and he just repeats it, and 
that is the message that gets out there.
    The thing that I worry about is if we constantly keep 
talking about drugs, tobacco, and alcohol, we are not going to 
raise the level of seriousness and the kids' perception of how 
serious tobacco use is, we are going to lower their perception 
of how dangerous illicit drugs are.
    To my way of thinking, and we have heard from some of the 
law enforcement officials from both sides of the border here 
during the past couple of weeks, the problem is not tobacco 
usage. There are no tobacco traffickers out there that are 
killing people, that are shooting the helicopters out of the 
sky and so forth. It is drugs; that is where the immediate 
problem and crisis is.
    I just think it can be somewhat self-defeating to link 
these three because there are a lot of people that are going to 
see that different from the way you and I see it. They are 
going to say, ``Ah, ha, illicit drugs are no worse than 
tobacco.'' I know that is not what you are trying to say, but I 
would caution again, in setting out a strategy, because this is 
what the President talks about. He does that, and a lot of, I 
think, young people are going to see that, and I think it can 
be problematic.
    With regard to, if I could, a couple of specific questions, 
we have talked, and a number of Members have talked this 
morning and this afternoon, about the problem with Gen. 
Gutierrez. Are you aware of any intelligence that was coming 
into our Government that indicated there was a problem with 
this man?
    Gen. McCaffrey. Let me, if I may, address your point on 
smoking cigarettes and alcohol and say that I got your concern. 
What I can promise you is that my own focus ought to be in 
accordance with the 1988 law that Congress passed that told me 
what the Agency should focus on, and that does not include the 
responsible use of alcohol or smoking cigarettes by people over 
21 and 18, respectively. So that will not be part of our focus, 
even though I am aware, as you are, as rational Americans, that 
we killed 440,000 people with cigarettes last year and 100,000 
with alcohol.
    But I agree, I basically ought to stay on my portfolio, and 
that is off the table. Alcohol is a mildly addictive drug. Most 
Americans do not have a problem with it. It is unfortunate that 
it has produced 10 to 18 million alcoholics in the Nation, 
hands down the worst drug problem we face. It is not my 
responsibility, and I am not going to do it.
    Now, to get back to the responsibility I do have, though, 
on Goal No. 1, which is to America's youth to reject drug 
abuse, alcohol, and tobacco, those are illegal activities; they 
are against the law. If you look back over the history of this 
Agency, starting in 1989, with the Bush administration, they 
clearly got the point that if you smoke cigarettes, if you 
abuse alcohol, if you use marijuana or other illegal drugs, you 
are involved in gateway behavior to addictive problems in life. 
That is really the difficulty with cigarettes, alcohol, and 
pot.
    So we know that we have got a tremendous challenge. 
Cigarette use in this country is down across the board, except 
with children it is up. It has gone up dramatically. Three 
thousand kids a day are starting smoking, and a thousand of 
them will die from it. Now, more importantly, if you are 
smoking pot as a 12-year-old, your chance of ending up using 
cocaine--this is just math; there is no defined causal 
relationship--goes up 89-fold. If you are smoking cigarettes as 
a 12-year-old, your chances of having an addictive problem 
later in life go up five-fold.
    So we are persuaded we ought to tell our kids, zero illegal 
drug activity--no booze, no cigarettes, no marijuana, heroin, 
et cetera. I think we will do that, and we will help the 
country out.
    To respond to your second question, I believe it would 
probably be useful for you, if you would care to, I would be 
glad to share with you the Agency and other intelligence 
sources that I used and use over time in assessing these 
foreign leaders and who I am dealing with; and I would be glad 
to show you the two classified biographies on Gutierrez Rebollo 
I used.
    Now, subsequent to that, there is some further discussion 
on whether other data bases might have had hits on him. It 
would not be helpful in this public environment to discuss it 
in detail, except to say that in this case, Mexico's senior 
leadership made an error of judgment and feel betrayed by 
treasonist activity and that we did not pick up on it either.
    Mr. Barr. Is there an inter-agency damage-assessment team 
operating at this point to assess the damage occasioned by this 
latest problem?
    Gen. McCaffrey. Yes. The Department of Justice and other 
elements are watching the situation about as closely as you can 
imagine.
    Mr. Barr. I am not talking about is there a group of people 
watching it. Is there a damage-assessment team, an interagency 
damage-assessment team that is focusing and meeting 
specifically to assess the extent of damage occasioned by 
Gutierrez's revelations?
    Gen. McCaffrey. Tom Constantine is doing a formal 
assessment of what he thinks came out of all this.
    Mr. Barr. I know, in his agency.
    Gen. McCaffrey. Right.
    Mr. Barr. Is there an inter-agency damage-assessment team?
    Gen. McCaffrey. I am not sure I am giving you the right 
answer, but, yes, there is. Each of the elements of the United 
States Government who are involved in supporting the Mexican 
counter-drug operations are trying to understand----
    Mr. Barr. I know. I know each agency is. Is there an inter-
agency, coordinated effort, specific effort by our Government 
to assess one of the most problematic breaches of intelligence 
in the entire history of our war on drugs, and if there is not, 
there is not. I am just asking if there is a coordinated, 
inter-agency, damage-assessment team.
    Gen. McCaffrey. Well, I am not sure I can give you an 
answer to that. Yes, I am the guy on the spot to make sure that 
each of these various departments of Government, that there is 
some oversight of what they are doing, and so I would be glad 
to serve as your focal point on that. There is a very serious--
--
    Mr. Barr. I do not need anybody to serve as my focal 
point----
    Mr. Barrett. General order.
    Mr. Barr. Fine, fine.
    Mr. Souder. We are going to go to one more round on each 
side, not a full round, but 5 minutes on each side, because we 
know we have had you here a long time, and we appreciate it 
very much.
    Did you have a question, Mr. Mica? I have a couple of 
points I wanted to make.
    Mr. Mica. Yes. Thank you, Mr. Chairman. Did you want to go 
to the other side first for fairness? I will wait. I can always 
hold my question.
    Mr. Souder. They have no questions.
    Mr. Mica. Thank you, Mr. Chairman. One of the things that 
concerns me is another chart that was in this report, and it 
talks about youth attitudes determine drug use, examples of 
marijuana and 12th-graders, and it says perception drops, risk 
perception drops and use rises, and it clicks in in about 1992. 
Who do you believe these young people look up to?
    I think that we are still suffering from the appointment in 
the last administration of a surgeon general who said ``Just 
say maybe'' and that we are still suffering from a President 
who said maybe if he had it to do over again, he would inhale. 
I think that this chart also shows that we continue to have 
this problem. We still continue to have a President who has not 
spoken out on the issue of legalization.
    I do not think he has spoken out once on that. I know you 
have spoken out on it. This is the question of marijuana, and I 
wrote you a note, as a matter of fact, on congratulating you on 
speaking it out.
    But the President made over 2,600 speeches and interviews 
between 1993 and 1995, and mentioned drugs 23 times and has not 
mentioned anything on this legalization. If the President of 
the United States, the chief health officer of the United 
States, is not helping to set this, then how can I tell my 17-
year-old that there is risk. If they say it is OK and their 
risk perception drops, which this chart shows, and usage 
increases, we are not getting the leadership at the national 
level that we need to turn this around.
    Now we are going to do paid advertising, which, if we have 
to do, we will do; but I still do not think that provides the 
leadership. When is the President going to speak out?
    Gen. McCaffrey. Well, the chart, Mr. Mica, on youth 
attitudes is University of Michigan data, and we think it is 
pretty good. It goes back to the 1960's. Dr. Lloyd Johnson and 
his team up there really helped, I think, a lot of us 
understand how youth form attitudes on the consequences of drug 
abuse.
    We combined it with a lot of very serious work done by 
Columbia University, Joe Califano and his associates, Dr. Herb 
Kleber and others. We think we do understand why youths form 
their value systems, and principally, they listen to their 
parents. They listen to their homeroom teacher, they listen to 
their ministers, the coach, the people who they have respect 
and love for and engage with them.
    In this country, values are formed by ordinary people. Now, 
you can get a cross-cutting problem if you have entertainment 
figures in music and TV and other things that are discordant 
notes, but essentially what we are is what our parents and 
those who love us told us to do.
    That is the problem right there. It seems to me that we not 
only saw a drop-off in TV coverage, we not only saw a change in 
the amount of energy that we put into some of these drug 
prevention programs; we ended up with a population of parents 
that came along who had used drugs, many of them, 50 to 70 
million, and they are trying to sort out what message to give 
their children.
    Now, in addition, we have got parents who are dual-income 
families, they are not home 3-to-7, they are not home on 
weekends, and that is another change. So we are going to have 
to organize ourselves to address that problem.
    If my two daughters are going to be professional women and 
involved in the work force, and thank God they are, then we 
have got to have an organizational scheme to engage our kids.
    To respond to your note on the President, look, by law, I 
am a non-political officer of Government. I was honored to take 
part in this whole operation. I was honored to be present 
yesterday when the President, the Vice President, the Cabinet 
of the United States, the Attorney General, the Secretary of 
Health and Human Services, Donna Shalala, the chairman of the 
JCS, and the rest of us stood up to put the strategy in front 
of the American people, and the President articulated what we 
were going to try and do. He said it during his State of the 
Union speech.
    I think he and others in this Government share your view, 
Mr. Mica, that we are committed to a non-drug, non-stoned 
America, and we are willing to work at it. I very much 
appreciate the bipartisan support that I have gotten out of 
this Congress in the last 2 years, whether it was money or 
tutoring or whatever, and I think we have got to start working 
partnership and stop counting the number of words in speeches. 
That is not the problem; the problem is kids and drugs.
    Mr. Mica. So national leadership is not a problem on the 
issue or has not been a problem.
    Gen. McCaffrey. I am quite proud of the support, to be 
blunt, that I have gotten out of the President and Vice 
President Gore and Janet Reno. Two of the most important women 
in my life nowadays are Donna Shalala and Janet Reno. I think 
they are serious, dedicated, intelligent folks; and Dick Riley 
is absolutely engaged, and Bill Perry is one of the finest 
public servants I have ever encountered. So, to be blunt, I am 
very positive. They have given me the money I asked for and the 
support.
    Mr. Souder. I also want to thank you on behalf of this 
committee for having worked with us. Since you came on board, 
we have worked aggressively with you in this committee in a 
bipartisan way, and hopefully we can continue to do that, 
because having everybody focused is important.
    Mr. Barrett, do you have any questions?
    Mr. Barrett. Thank you again, and you will get your reward 
in heaven.
    Mr. Souder. Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman. General, I would like to 
turn to a topic I do not think we have really touched on today 
but that worries me as well, and that is found on pages 58 and 
59 of the Strategy regarding legalization of marijuana.
    I hope that we are in agreement here that marijuana is, 
indeed, a mind-altering drug, that it does things to the human 
mind and the human body that inherently pose a danger to 
society. It affects people's ability to perceive the world 
around them and to react properly to it.
    People take marijuana for the same reason they take cocaine 
or heroin, and that is to alter their mind. That is why they 
are mind-altering drugs, and that is why they are illegal. I 
know that there have been efforts. We saw unfortunately the 
results of well-funded campaigns in two Western States this 
past year to obscure that fact.
    There are continuing efforts to legalize marijuana, and the 
title of this section of your paper says ``Countering Attempts 
To Legalize Marijuana,'' and you make a statement in here that 
we must continue to oppose efforts to legalize marijuana, but 
there is nothing in here at all about what we are doing and how 
we propose to do that.
    There is no strategy whatsoever; it just says we are going 
to continue to counter attempts, and that particularly bothers 
me is not even so much that there is no specifics and no plan 
laid out for doing that, but the entire last, lengthy paragraph 
in that section very clearly leaves the door opened that maybe 
we will--we are spending taxpayer money, you state here, to 
review the possible therapeutic effects of marijuana.
    Frankly, I do not give a damn what therapeutic effects 
marijuana may or may not have; the fact of the matter is, it is 
a mind-altering drug, so whether or not it has any therapeutic 
effects, it is still a mind-altering drug. Why, in heaven's 
name, would we want to open the door to legalize its use for 
medical purposes? Your paper here seems to contradict itself.
    Also, I mean, I really would appreciate--I do not 
understand what is going on here, because there is nothing here 
about countering attempts to legalize marijuana; there is only 
a great deal of detail about maybe there is a medical use for 
it that may lead to some sort of legalization. How much money 
is this study going to take?
    Gen. McCaffrey. Well, Mr. Barr, let me, first of all, join 
you completely in your viewpoint that America is better off 
with marijuana being a Schedule I drug. No good has come out of 
it. A bunch of Americans have tried it. It led to a lot of 
difficulty. It is a major problem in the universities today and 
high schools: failure to learn, teenage pregnancy, stoned 
driving and death. We know, although we cannot demonstrate the 
scientific causal relationship, we know the statistical 
correlation between pot use among adolescents and later 
addictive problems is overwhelming.
    We are opposed to the legalization of marijuana, and that 
strategy, that is just a marker point. We will actively follow 
that issue. Without being paranoid, there is a very well 
organized, determined, heavily funded, national legalization 
strategy with law firms and polling firms and political 
operatives, and that is what happened to a large extent in 
California and Arizona.
    Now, they have also recognized the American people are not 
going to support the legalization of marijuana. That is what 
the polls are telling us. That is what parents are telling us, 
police officers, and ministers. Now, I think they have gone 
after some other approaches that suggest medical use, growing 
hemp, et cetera.
    Now, medical is an easy one. Intellectually, there is not a 
bit of problem. We use cocaine, methamphetamine, demerol, and 
other very powerful, dangerous drugs, the Schedule II drugs. We 
have enormous trust in the American medical establishment, but 
they all have to get passed as safe and effective medicines. If 
you can make the case, pass peer group review, go to the NIH 
and the FDA, great, you can become a medicine. If you are a 
laetrile or thalidomide, you do not get through the gates.
    What we did in the 1980's, looking at the history of it, 
there were hundreds of studies of smoked dope, and out of that 
they said we need to provide doctors THC, one of the active 
components of the cannaboids. Since 1985, it has been in a pill 
form, Marinol. It is used by some physicians for nausea for 
certain discomforts. It is basically no longer very effective 
compared to other, much better medications.
    Mr. Barr. Could I just interrupt, not to stop you, but 
since my colleague on the other side gets upset if I go a 
little bit too long, and mention one other thing that you could 
crank into your final remarks here.
    With regard to the use of marijuana, on the one hand, 
getting back to my question previously about tobacco, we have 
seen this administration very clearly is engaged in a very 
concerted public relations effort against tobacco usage, trying 
to use the FDA sort of as its hammer in that effort, a very 
aggressive program, and yet we are at this very same time, we 
are funding efforts to see if maybe there is a good use for 
marijuana.
    Even if that were a good idea, which I do not think, I just 
disagree absolutely with doing that, in the great scheme of 
things aren't there better things that we could be using that 
money on to fight the war on drugs right now?
    Gen. McCaffrey. I think if we are going to be 
intellectually honest with ourselves, we are going to have to 
pay attention to the viewpoints of the medical research 
community when they claim they want smoked dope to use to 
manage chemotherapy nausea or claim that it is a pain-
management tool or claim that it is a glaucoma treatment. The 
appropriate way to do that is to not get it into politics. Take 
it to the NIH and the FDA--we have got brilliant men and women 
over there--and let them look at it in a scientific manner. 
That is what we are doing, and I think we will end up--again, 
we have an open mind on it.
    If some of those 435 compounds in marijuana have medical 
benefit, we will isolate more of them, and these brilliant 
people in NIH and the pharmaceutical industry can make it 
available for American medicine. Other than that, it will not 
be a medicine, so I think we are doing the right thing, a very 
sensible approach, Donna Shalala, Dr. Harold Varmas, Dr. Alan 
Leshner, and we will not get tricked on this issue.
    Mr. Souder. That is really important, and we are going to 
be watching that closely because we know the politics of 
science as well----
    Gen. McCaffrey. Yes, sir.
    Mr. Souder [continuing]. And this is too critical.
    Mr. Cummings.
    Mr. Cummings. General, I will be very brief. I just want to 
do three things.
    No. 1, I want to thank you for what you are doing. I really 
want to thank you. I agree with Mr. Barrett, you have to have 
one of the toughest jobs in the world, not just America, but in 
the world. I also want to thank you for when you came to 
Baltimore. You do not know it, but you went into the streets of 
Baltimore, no guards. You stood there with young men who had 
been addicted but who had gotten off of drugs. You put your 
arms around them and told them that they could make it.
    So often I think what happens is people sit in towers and 
look down and never come down to where the troops are, you 
might say, or where the battle is really being fought, but I 
just want you to know that one of those young men said to me 
the other day that it meant so much to him that you took the 
time to spend hours in Baltimore with them, to talk to them and 
encourage them to get beyond where they are and in the 
difficult circumstances that they found themselves; and I thank 
you for that.
    Finally, I want to encourage you. I want to encourage you. 
I know this must be very, very difficult at times, when you are 
trying to rid our Nation of a problem that touches so many 
people, and it really does, in so many ways. But I just wanted 
to encourage you to continue on with what you are doing.
    I think it was Winston Churchill who said, ``Never give up, 
never, never, never.'' I know sometimes it may get very dark, 
sometimes the end may seem very difficult to see, but I feel 
real good about what you are doing, because when I looked at 
those young men that day that you came to Baltimore a few 
months ago--and these are street guys, and they had this guy--
there is this white guy, a General, of all things, to come in, 
and they trusted you. They trusted that you were giving it the 
very best that you had, and these are the kind of guys you 
cannot fool too easily.
    So I just want to, you know, encourage you and thank you.
    Gen. McCaffrey. Thank you for those words, Mr. Congressman. 
They mean a lot to me.
    Mr. Souder. I think that Mr. Mica had a point of personal 
privilege.
    Mr. Mica. Just a quick point of personal privilege. 
General, I do want to admit to being, without a doubt, probably 
one of the harshest critics of the administration policy over 
the past 4 years, but I do want to say that I will do anything, 
and we have worked together despite differences, to get you the 
resources that you need to bring attention to this problem to 
do whatever this Congress needs to do to effectively address 
the problem.
    So I renew my commitment to you. If we have had problems in 
the past, I am not interested in the past; I am interested in 
the future. We will deal with the past, but I thank you for 
your efforts. I thank you for making this a national priority, 
and for working with this subcommittee the way you have, and we 
will continue to work with you, and we also will continue to 
keep an eye on your job and the other jobs done by the 
administration in this effort.
    Thank you, Mr. Chairman.
    Mr. Souder. I want to reiterate that we focus on 
interdiction here and that we have more jurisdictional 
authority over the Defense Department, and those areas, than we 
do over the other areas, although because we have jurisdiction 
over your office, we get into prevention and treatment. But as 
I challenged you last time you were here, we intend to, and 
need to, at several committee levels, look at the prevention-
and-treatment programs just as critically as we look at the 
interdiction programs.
    There is not one of us who has not met people in every 
urban area, suburban area, and rural area who have figured out 
the hustle of how to go to treatment programs. I have met many 
people in homeless shelters and runaway shelters, kids in 
schools, who have been through as many as 7 to 10 programs, and 
they know how to get through them.
    The zero tolerance that we talked about earlier today and 
trying to do the drug testing, and hopefully you do that in 
your office as well, the random drug testing, those type of----
    Gen. McCaffrey. Starting with me. Right.
    Mr. Souder [continuing]. Modeling ourselves and asking for 
the drug dogs in the schools. That is not the ultimate solution 
to the problem, because the reason that people are turning to 
drugs has to be addressed as well, and they are multiple. They 
could be health reasons, they could be family problems, and we 
understand that, but our immediate problem is to address the 
drug question and to lower the risk.
    We have boosted these treatment dollars tremendously 
without any corresponding real evaluation and tough evaluation 
of insurance questions, of a whole array of issues.
    But I want to thank you for your very good testimony today. 
The amount of time you take here, this is really just the 
beginning. To many of us, you are kind of the Gen. McArthur of 
the drug war. We very much appreciate this, because in this 
area you came in, you got everybody focused again.
    This committee has been on the point with hearings all over 
the country and here to help try to move the money. We want to 
continue to try to do that and make sure that that money, in a 
time of declining budget deficits, hopefully, we make every 
dollar count. To do that, we need your help; and, once again, 
we very much appreciate your time today.
    With that, the Subcommittee on National Security, 
International Affairs, and Criminal Justice is adjourned.
    [Whereupon, at 2:07 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
